<html>
<title> - MISMANAGEMENT AT THE CIVIL RIGHTS DIVISION OF THE DEPARTMENT OF JUSTICE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
MISMANAGEMENT AT THE CIVIL RIGHTS DIVISION OF THE DEPARTMENT OF JUSTICE

=======================================================================


                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 16, 2013

                               __________

                           Serial No. 113-10

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
80-450                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
MARK AMODEI, Nevada                  SUZAN DELBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
KEITH ROTHFUS, Pennsylvania

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel



                            C O N T E N T S

                              ----------                              

                             APRIL 16, 2013

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3

The Honorable Trent Franks, Jr., a Representative in Congress 
  from the State of Arizona, and Member, Committee on the 
  Judiciary......................................................    14

The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Member, Committee on the Judiciary..    15

                               WITNESSES

Hans A. von Spakovsky, Senior Legal Fellow and Manager, Civil 
  Justice Reform, The Heritage Foundation
  Oral Testimony.................................................    19
  Prepared Statement.............................................    22

Horatio G. Mihet, Senior Litigation Counsel, Liberty Counsel
  Oral Testimony.................................................    32
  Prepared Statement.............................................    35

Samuel R. Bagenstos, Professor of Law, The University of Michigan 
  Law School
  Oral Testimony.................................................    99
  Prepared Statement.............................................   102

J. Christian Adams, Founder, Election Law Center
  Oral Testimony.................................................   109
  Prepared Statement.............................................   111

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................     4

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................    12

Material submitted by the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................   131

Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................   200

Additional Material submitted by the Honorable John Conyers, Jr., 
  a Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................   244

Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................   259

                                APPENDIX
               Material Submitted for the Hearing Record

Response to Questions for the Record from Samuel R. Bagenstos, 
  Professor of Law, The University of Michigan Law School........   274


MISMANAGEMENT AT THE CIVIL RIGHTS DIVISION OF THE DEPARTMENT OF JUSTICE

                              ----------                              


                        TUESDAY, APRIL 16, 2013

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:08 a.m., in room 
2141, Rayburn Office Building, the Honorable Bob Goodlatte 
(Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Coble, Chabot, Issa, 
King, Franks, Gohmert, Jordan, Poe, Marino, Gowdy, Labrador, 
Farenthold, Conyers, Nadler, Watt, Lofgren, Jackson Lee, Chu, 
Gutierrez, Bass, Richmond, DelBene, and Garcia.
    Staff present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff and 
Chief Counsel; Allison Halataei, Parliamentarian & General 
Counsel; John Coleman, Counsel; Kelsey Deterding, Clerk; 
(Minority) Perry Apelbaum, Staff Director & Chief Counsel; 
Danielle Brown, Parliamentarian; and Aaron Hiller, Counsel.
    Mr. Goodlatte. Good morning. The Judiciary Committee will 
come to order, and without objection, the Chair is authorized 
to declare recesses of the Committee at any time.
    We welcome everyone to today's hearing on ``Mismanagement 
of the Civil Rights Division of the Department of Justice.'' I 
will recognize myself for an opening statement, and then the 
Ranking Member.
    Today the Judiciary Committee examines a report released on 
March 12 by the Inspector General regarding the politicization, 
polarization, and mismanagement occurring at the Civil Rights 
Division of the Department of Justice, specifically, the 
Division's Voting Section.
    The findings of this report include evidence of 
inappropriate conduct by political appointees, harassment of 
employees because of their political views, selective 
enforcement of voting laws, and misleading testimony by the 
Division head, Assistant Attorney General Thomas Perez. These 
findings point to a deep ideological polarization giving rise 
to internal disputes and mistrust, which has harmed the 
efficacy of this Division.
    The Inspector General's report in part concludes, ``The 
cycles of actions and reactions that resulted from this 
mistrust were in many instances incompatible with the proper 
functioning of a component of the Department.''
    The Division is entrusted with the authority to protect the 
civil and constitutional rights of all Americans and to enforce 
laws prohibiting discrimination on the basis of race, color, 
sex, disability, religion, familial status, and national 
origin. The report, however, describes a division tainted by 
partisanship in unfairly favoring one group over another, both 
in its enforcement of the laws and in its workplace culture.
    As the Inspector General's report states, ``The high 
partisan stakes associated with some of the statutes that the 
Voting Section enforces have contributed to polarization and 
mistrust within the Section.'' The report, however, makes clear 
that other components within the Department with enforcement 
authority over equally controversial subject matter do not 
appear to suffer from the same degree of polarization and 
internecine conflict. ``The difference, according to the 
report, is a function of leadership and culture.''
    The report covers the time period between 2001 and the end 
of 2012. It is clear, however, that little has changed since 
then at the Division. For example, just a few months ago we 
found this Facebook post. It may be a little hard to read over 
there, but this is a Facebook by Dan Freeman, a lawyer in the 
Voting Section of the Department of Justice, who proudly 
announced that he ``started the crowd booing when Paul Ryan 
came out at the presidential inauguration in January.'' His 
actions suggest that a climate of open and unabashed 
partisanship still prevails at the Division. To our knowledge, 
Mr. Freeman has not been disciplined in any way.
    Other examples of this kind of unacceptable conduct include 
blatantly partisan political commentary found in emails sent by 
the Voting Section employees on Department computers, Section 
employees posting comments on widely-read Websites concerning 
Voting Section work and personnel, and in one instance, an 
employee writing a comment to an article concerning an internal 
Department investigation of potential misconduct by a Section 
manager that read, ``Geez, reading this just makes me want to 
go out and choke somebody. At this point, I'd seriously 
consider going in tomorrow and hanging a noose in someone's 
office to get myself fired, but they'd probably applaud the 
gesture and give me a promotion for doing it.''
    One overarching question leaps from this report: with this 
sort of palpable dysfunction at the Division, what, if 
anything, has Assistant Attorney General Tom Perez done to 
remedy it? With this nomination by President Obama to be the 
next Secretary of Labor, the American people deserve to know 
whether Mr. Perez is capable of properly managing a government 
agency.
    The perception alone of partisan or racial bias undermines 
the core goals of this Division. I agree with the Inspector 
General's statement that, ``Division leadership seems to 
promote impartiality, continuity, and professionalism as 
critical values in the Voting Section,'' and that, ``Leadership 
and career staff alike must embrace a culture where ideological 
diversity is viewed as beneficial.''
    These and other incidents we will hear about today are a 
disservice to the American people who rely on the Civil Rights 
Division to protect them by enforcing our Nation's anti-
discrimination laws in a professional and unbiased manner. The 
IG report we will discuss today is simply another example of 
the questionable management practices of Thomas Perez, who has 
now been nominated by President Obama to be the next Secretary 
of Labor.
    Just 2 days ago, Chairman Issa, Ranking Member Grassley, 
and I released a joint report on Thomas Perez's involvement in 
a secret deal with the City of St. Paul that ultimately cost 
the taxpayers as much as $200 million. We intend to continue 
our investigation into this troubling matter.
    I look forward to hearing from all of our witnesses today.
    And it is now my pleasure to recognize the Ranking Member 
of the Committee, the gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman. Our hearts go out to the 
people of the City of Boston and to the families and loved ones 
of all those who were injured in yesterday's attacks. This 
tragedy is a sobering reminder of the need to set aside 
partisan politics and to work together in the common cause for 
the good of the Nation.
    I find it necessary to point out that the title of this 
hearing, ``Mismanagement at the Civil Rights Division of the 
Department of Justice,'' is unnecessarily provocative and 
demeans the seriousness of the work we do on the Committee. Our 
job is to uncover the facts and then draw conclusions, not the 
other way around. In this case, the misleading title also is 
designed to obscure the facts rather than to make them clear to 
the public. It is intended to harm the reputation of a champion 
for civil rights and a decent public service.
    Two days from now, of course, we know that the Assistant 
Attorney General, Tom Perez, will sit before the Senate as the 
President's nominee to lead the Department of Labor. His tenure 
as the head of the Civil Rights Division of the Department of 
Justice has been successful by any measure. To suggest 
otherwise to me is both inaccurate and unfair.
    Let us look at the record. The recent report of the Office 
of the Inspector General entitled, ``A Review of the Operations 
of the Voting Section of the Civil Rights Division'' suggests 
mismanagement, but the mismanagement did not occur under 
today's leadership. Under the Bush administration, the Civil 
Rights Division was an agency in crisis. Political appointees 
marginalized the voices of career attorneys. Those attorneys 
abandoned the Voting Section at an alarming rate.
    The perception in the civil rights community and often 
within the Division was that the political preferences of the 
Administration had taken precedence over the impartial 
enforcement of civil rights law. That suspicion was confirmed 
in 2008 in a series of three reports issued jointly by the 
Office of the Inspector General and the Office of Professional 
Responsibility. And those reports concluded that the political 
leadership of the Division had violated Federal law by 
politicizing the hiring process and other personnel decisions.
    The recent Inspector General's report paints a similar 
picture of that time, from 2003 to 2007. The report notes 
``polarization and suspicion in the Voting Section became 
particularly acute as Bush appointees illegally recruited new 
attorneys into the Voting Section and other parts of the 
Division based on their conservative affiliations.'' That is a 
quote. And I will be putting parts of this into the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Conyers. The report also finds that the Division 
leadership acted at times inappropriately or unfairly with 
career attorneys. Changes to longstanding Division policy that 
appeared to be designed to shield conservative attorneys from 
criticism only further undermined morale. That is true 
mismanagement, marginalizing the career experts, politicizing 
the decision making process, and ultimately breaking the law.
    If the purpose of this hearing was to look back at the 
conditions of the Division between 2001 and 2008, then today's 
title would be more appropriate. But the timing and title of 
this hearing are no coincidence. They are intended to disparage 
the reputation of the Associate Attorney General as he stands 
for confirmation.
    Fortunately, his record can withstand this partisan attack. 
Although he inherited a division in disarray, Mr. Perez has 
righted the ship. In fact, to the extent the Inspector 
General's report mentions Perez only once, and it is to clear 
him of wrongdoing and credits him for his management processes.
    Under his leadership, the Division obtained $660 million in 
lending settlements, including the three largest lending 
discrimination settlements in the Department's history, $128 
million. The Division obtained the largest recovery rewarded in 
an employment discrimination case. The Division secured $16 
million as part of a settlement to enforce the Americans with 
Disabilities Act in more than 10,000 banks and other financial 
offices across the country. And in last year alone, the 
Division has opened 43 new voting rights cases, more than twice 
the number in any previous year, and filed 13 additional 
objections to discriminatory voting practices under Section 5 
of the Voting Rights Act.
    Mr. Perez has accomplished these tasks, and he has restored 
confidence and effectiveness of his career staff. There may be 
some who disagree with his policy objectives, but even critics 
should be impressed by his achievements. And I have, over the 
course of the past 2 years, made several requests for hearings 
in this Committee on matters including the wave of changes in 
State voting laws, various Voting Rights Act pre-clearance 
cases, and the Division's enforcement of the National Voter 
Registration Act. And to date, we have not held a single 
substantive hearing on any of these topics. My colleagues and I 
have held forums on these issues across the country. The 
public's interest in these matters is overwhelming.
    And unfortunately, I suspect that much of today's 
discussion will cover long discredited accusations. Instead of 
attacking Perez, we ought to get back to the work of 
strengthening civil rights and voting rights laws in this 
country.
    I submit the rest of my statement and thank the Chairman 
for the additional time that I was granted.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
 in Congress from the State of Michigan, and Ranking Member, Committee 
                            on the Judiciary
    Mr. Chairman, once again, I must object to the title of this 
hearing: ``Mismanagement at the Civil Rights Division of the Department 
of Justice.''
    Unnecessarily provocative language demeans the seriousness of the 
work we do in this Committee. Our job is to uncover the facts, and then 
draw conclusions--not the other way around.
    In this case, the title is also misleading. It is designed to 
obscure the facts, rather than to make them clear to the public. And it 
is intended to harm the reputation of a champion for civil rights and a 
decent public servant.
    Two days from now, Assistant Attorney General Tom Perez will sit 
before the Senate as the President's nominee to lead the Department of 
Labor. His tenure as head of the Civil Rights Division of the 
Department of Justice has been successful by any measure. To suggest 
otherwise is both inaccurate and unfair.
    Let us look carefully at the record.
    The recent report of the Office of the Inspector General, titled 
``A Review of the Operations of the Voting Section of the Civil Rights 
Division,'' does, in fact, suggest that there has been mismanagement at 
the Civil Rights Division.
    But that mismanagement did not occur under today's leadership.
    Under the Bush Administration, the Civil Rights Division was an 
agency in crisis. Political appointees marginalized the voices of 
career attorneys. Those attorneys abandoned the Voting Section at an 
alarming rate. The perception in the civil rights community, and often 
within the Division, was that the political preferences of the 
Administration had taken precedent over the impartial enforcement of 
civil rights law.
    That suspicion was confirmed in 2008 in a series of three reports 
issued jointly by the Office of the Inspector General and the Office of 
Professional Responsibility. Those reports concluded that the political 
leadership of the Division had violated federal law by politicizing the 
hiring process and other personnel decisions.
    The recent Inspector General's report paints a similar picture of 
that time. From 2003 to 2007, the report notes, ``polarization and 
suspicion'' in the Voting Section became ``particularly acute'' as Bush 
appointees ``illegally recruited new attorneys into the Voting Section 
and other parts of the Division, based on their conservative 
affiliations.''
    The report also finds that Division leadership ``acted at times 
inappropriate or unfairly'' with career attorneys. Changes to 
longstanding Division policy that appeared designed to shield 
conservative attorneys from criticism only further undermined morale.
    That, Mr. Chairman, is true ``mismanagement'': marginalizing the 
career experts, politicizing the decision-making process, and 
ultimately breaking the law. If the purpose of this hearing was to look 
back at conditions in the Division between 2001 and 2008, then today's 
title would be appropriate.
    But the timing and title of this hearing are no coincidence. They 
are intended to disparage the reputation of the Associate Attorney 
General as he stands for confirmation.
    Fortunately, his record can withstand this partisan attack. 
Although he inherited a Division in disarray, Mr. Perez has righted the 
ship. In fact, to the extent the Inspector General's report mentions 
Mr. Perez at all, it clears him of wrongdoing and credits him for his 
management practices.
    Moreover, under his leadership:

        <bullet>  The Division has obtained $660 million in lending 
        settlements, including the three largest lending discrimination 
        settlements in the Department's history.

        <bullet>  The Division obtained $128 million in the largest 
        recovery ever awarded in an employment discrimination case.

        <bullet>  The Division secured $16 million as part of a 
        settlement to enforce the Americans with Disabilities Act at 
        more than 10,000 banks and other financial retail offices 
        across the country.

        <bullet>  And in the last year alone, the Division has opened 
        43 new voting rights cases--more than twice the number than in 
        any previous year--and filed 13 additional objections to 
        discriminatory voting practices under Section 5 of the Voting 
        Rights Act.

    Mr. Perez has accomplished these tasks and more, and he has 
restored the confidence and effectiveness of his career staff. There 
may be some who disagree with Mr. Perez's policy objectives, but even 
his political opponents should be impressed by his achievements.
    I have, over the course of the past two years, made several 
requests for hearings on matters including the wave of changes in state 
voting law, various Voting Rights Act preclearance cases, and the 
Division's enforcement of the National Voter Registration Act. To date, 
we have not held a single substantive hearing on any of those topics. 
My colleagues and I have held forums on these issues across the 
country--the public's interest in these matters is overwhelming.
    Unfortunately, I suspect that much of today's discussion will cover 
long-discredited accusations of wrongdoing at the Justice Department. 
Instead of attacking Mr. Perez, we ought to get back to the work of 
strengthening civil rights and voting rights laws in this country. How 
many times will we discuss the New Black Panthers case, or the 
theoretical possibility of voter fraud, or the idea that the Civil 
Rights Division responds selectively to records requests, before we 
hold a hearing about making it easier for citizens to vote?
    Before any of my colleagues accuse the Assistant Attorney General 
for Civil Rights of injecting politics where politics do not belong, I 
urge them to think hard about the evidence, about the conclusions of 
the Inspector General, and about the context for this hearing today.
    I hope my colleagues will put aside this partisan rhetoric and 
return to the people's business.
                               __________

    Mr. Goodlatte. I thank the gentleman for his remarks. And I 
now turn to the Chair of the Constitution and Civil Justice 
Subcommittee, the gentleman from Arizona, Mr. Franks, for his 
opening statement.
    Mr. Franks. Well, thank you, Mr. Chairman. I want to 
express gratitude for allowing me this statement. And I also 
want to echo both yours and the Ranking Member's expression of 
condolence and concern on behalf of the victims of the attacks 
in Boston.
    Mr. Chairman, last month the Inspector General at the 
Justice Department released a report that exposes serious 
mismanagement issues within the Department's Civil Rights 
Division. Some of these management issues span two or three 
presidential administrations. Others are limited to the present 
Administration. Unfortunately, it appears that nothing has been 
done by leadership within the Civil Rights Division to correct 
this mismanagement, including by its current leader, Assistant 
Attorney General, Tom Perez.
    The mismanagement uncovered by the IG's report takes 
several forms. One of the more disturbing mismanagement issues 
identified in the IG's report is a culture of harassment and 
mistreatment of conservative employees within the Division. For 
example, Mr. Chairman, according to the IG report, ``At least 
three career Voting Section employees posted comments on 
widely-read liberal Websites concerning Voting Section work and 
personnel, including a wide array of inappropriate remarks 
ranging from petty and juvenile personal attacks to highly 
offensive and potentially threatening statements.''
    Mr. Chairman, nothing has been done to end this harassment 
and treatment of Division career employees. Employees who 
engaged in this hostile, racist, and inappropriate behavior are 
still employed by the Department, including one who admitted 
lying to the Inspector General. This would be shocking except 
for the fact that it appears that the Division's senior 
leadership also participated in some of the harassment in at 
least one instance involving the removal of a career attorney, 
Voting Section chief, Chris Coates. Mr. Coates was harassed and 
eventually, with Assistant Attorney General Tom Perez's 
approval, was reassigned outside the Division because of his 
conservative views. Moreover, the IG determined that political 
appointees within the Division provided misleading information 
to the Attorney General as rationale to remove Mr. Coates.
    Other mismanagement issues under the current Administration 
include ``incidents in which Voting Section career staff shared 
confidential Section information with outside civil rights 
attorneys, some of whom were working on matters where they were 
adverse to the Department;: hiring practices that the IG 
determined risk ``future violations of merit system principles 
as well as for creating perceptions that the Division engages 
in favoritism based on ideology and politics;'' and finally, 
``widespread and vehement opposition among career employees to 
race neutral enforcement of voting laws.''
    Mr. Chairman, it appears that the Assistant Attorney 
General, Tom Perez, tried to cover up Division employees' 
opposition to race neutral enforcement of the laws by providing 
misleading testimony to the U.S. Commission on Civil Rights, 
despite specifically being briefed on the problem.
    Some have claimed that the Obama administration ushered in 
a new era at the Civil Rights Division. The IG reports 
demonstrate conclusively that such a claim is far from reality. 
It appears that instead of correcting problems that may have 
existed within the Civil Rights Division during previous 
Administrations, that the current leadership within the 
Department has only exacerbated them. Indeed, it appears that 
the Attorney General was more concerned with manipulating the 
rule of law and pushing the limits of justice to strike a 
secret deal with the City of St. Paul to preserve a 
questionable legal theory than he was with cleaning up the 
Civil Rights Division. Moreover, he either allowed pervasive, 
hostile, and inappropriate actions to occur, or was willfully 
ignorant of what was happening in the Division he is charged 
with running.
    Mr. Chairman, the Justice Department is one of the Federal 
Government's most powerful agencies, and the Civil Rights 
Division is one of the Department's largest components. The 
Civil Rights Division needs just and competent leadership to 
correct the egregious and dysfunctional operation of the 
Division uncovered in the IG report. Hopefully by combining 
this IG report with strong congressional oversight, reform can 
finally come to the Civil Rights Division in the United States 
Justice Department.
    And I would yield back the balance of my time.
    Mr. Goodlatte. The Chair thanks the gentleman, and is now 
pleased to recognize the gentleman from New York, the Ranking 
Member of the Subcommittee on the Constitution and Civil 
Justice, Mr. Nadler.
    Mr. Nadler. Thank you, Mr. Chairman. Let me begin by also 
expressing my obvious outrage at the terrorist attack in 
Boston, and also extend my condolences, as we all do, to the 
victims.
    Mr. Chairman, this hearing is not about legitimate 
oversight of the Civil Rights Division. That is perfectly clear 
from its inflammatory title, its timing, and the invitation of 
two witnesses with long histories of leveling unfounded 
partisan claims against this Administration's Civil Rights 
Division.
    Any serious oversight effort would have invited testimony 
from the Office of Inspector General, whose report is the 
alleged subject of this hearing, and from a representative of 
the Department of Justice. Apparently, however, scheduling to 
ensure their presence would have interfered with efforts to 
tarnish Assistant Attorney General Perez's leadership on the 
eve of his Senate confirmation hearing as President Obama's 
nominee for Secretary of Labor.
    Instead, we get two witnesses who were very much a part of 
the problem in the last Administration. Mr. von Spakovsky was 
counsel to the Civil Rights Division when its leadership was 
breaking the law by politicizing hiring and personnel 
practices. Mr. Adams misrepresented facts when testifying 
before the Civil Rights Commission to bolster his allegation 
that the Division is hostile to race neutral enforcement of the 
Voting Rights Act.
    As the OIG report that we examine today found, 
``Polarization and suspicion in the Voting Rights Section 
became particularly acute during the period from 2003 to 
2007,'' which is the time frame during which these two 
witnesses served in the Division. And their ongoing posting on 
the Internet of confidential and deliberative Voting Section 
information, information that they apparently receive from 
current employees, continues to foment partisan rancor and 
calls into serious question the legitimacy and credibility of 
anything they say today.
    We unquestionably will hear plenty of heated rhetoric and 
baseless allegations of mismanagement by the current 
Administration from these witnesses today. But the actual 
evidence paints a very different picture. It shows that 
Assistant Attorney General Perez is an effective leader who has 
restored the tarnished professionalism, integrity, and 
effective civil rights enforcement of the Civil Rights 
Division. Under his leadership, the Division has increased 
enforcement efforts and obtained unprecedented monetary and 
policy settlements across a broad range of substantive areas.
    For example, his Division obtained a $660 million in 
settlements of lending discrimination lawsuits. It brought 
several cases to enforce the Supreme Court's Olmstead decision, 
and ensured that Americans with disabilities are not left 
languishing in large institutions.
    His Division increased the number of human trafficking 
cases by 40 percent over the prior 4-year period and convicted 
nearly 75 percent more defendants in hate crime cases. It acted 
aggressively to protect the rights of military members, working 
to eliminate discrimination in housing and lending, and to 
ensure the voting rights of our men and women serving overseas.
    This is not mismanagement. It is effective leadership, and 
that is exactly why Assistant Attorney General Perez has been 
targeted for criticism in this hearing and elsewhere. Those who 
do not share his commitment to enforcing this Nation's civil 
rights laws are unquestionably unhappy with him, but there is 
no legitimate legal, ethical, or professional responsibility 
basis for their complaints. Rather, this is partisan politics 
plain and simple to tarnish the reputation of someone who ought 
to be commended for restoring the honor of the Civil Rights 
Division of the Justice Department.
    This hearing and the Inspector General report of the Voting 
Rights Section upon which it rests are stark confirmation of 
this fact. The 258-page OIG reports finds absolutely no 
evidence that this Administration and, more specifically, 
Assistant Attorney General Perez, has made hiring personnel or 
law enforcement decisions for racial or political reasons, no 
evidence whatsoever in this OIG report. Yet even in the face of 
the facts, my colleagues and the panelists that they have 
invited to be here today continue to allege otherwise.
    There is no question that the Obama administration 
inherited a Voting Rights Section in crisis. A prior 2008 Joint 
Office of Inspector General and Office of Professional 
Responsibility Report documented unlawful misconduct of 
political appointees in the Bush administration, who, from 2003 
to 2007 made personnel and hiring decisions in an aggressive 
effort to pack the Section with employees who shared their 
political ideology.
    During this time, 31 trial lawyers left the Section, 
including many experienced trial attorneys. Workplace culture 
and employee morale was severely damaged. Perhaps 
unsurprisingly, the vast majority of the troubling and 
unacceptable incidence of workplace harassment recounted in the 
Inspector General's report that we examine today came during 
this time frame, from 2003 to 2007. Yet problems that may have 
been fostered and took place prior to Assistant Attorney 
General Perez's leadership of the Division will go largely 
unexamined by my colleagues.
    As the recent OIG report confirms, however, Assistant 
Attorney General Perez made several changes to ensure that the 
problems recounted in the OIG report remained in the past. 
These reforms are working, with the OIG report confirming that 
there was no evidence that recent hiring was influenced by 
political or ideological bias. Career and merit-based hiring 
has been restored so that politics and ideology no longer have 
any place in the hiring of individuals entrusted with enforcing 
our Nation's civil rights laws.
    While broader efforts to restore a workplace culture of 
respect, collegiality, and professionalism will unquestionably 
take time, those efforts are ongoing and appear to be taking 
hold. Assistant Attorney General Perez has worked quickly and 
effectively to address the wrongs that he inherited when he 
took the helm of the Civil Rights Division. He should be 
thanked for his service, and we should all look forward to his 
stewardship of the Department of Labor.
    As to the Civil Rights Division, this Committee should stop 
chasing the unsubstantiated allegations of political activists, 
whose prior claims repeatedly have been proven false, only 
after the expenditure of tremendous resources and taxpayer 
dollars. It is long past time to end the smear campaign against 
the Obama administration's Civil Rights Division and allow its 
devoted employees to spend their full time and energy enforcing 
the Nation's laws.
    I thank you, and I yield back the balance of my time.
    Mr. Goodlatte. The Chair thanks the gentleman from 
Michigan, Mr. Conyers, for his observations about the tragedy 
that occurred in Boston yesterday. And I believe it would be 
appropriate that we have a moment of silence in remembrance of 
those who have lost their lives and those who have suffered 
severe injuries, some of whom are fighting for their lives, and 
the families, and the citizens of Boston, and the citizens of 
America who have rallied to support them. And we will now 
observe a moment of silence.
    [Moment of silence.]
    Mr. Goodlatte. Thank you.
    Mr. Conyers. Good idea.
    Mr. Goodlatte. We will now welcome our distinguished panel 
today. And before I introduce them and swear them in, I do want 
to mention that the Assistant Attorney General, Mr. Perez, and 
the Inspector General have been invited to testify. And given 
the ongoing nature of this and the fact that both Chairman 
Issa, and myself, and Ranking Member Grassley in the Senate 
have indicated that we intend to pursue the matter, 
particularly as it relates to the case before the Supreme Court 
and the matter with the City of St. Paul, Minnesota, that I 
suspect that they will be afforded additional opportunities to 
testify.
    At this time, we would welcome our distinguished panel, and 
ask that they all rise and be sworn in.
    [Witnesses sworn.]
    Mr. Goodlatte. Thank you very much. Please be seated. Let 
the record reflect that all the witnesses responded in the 
affirmative.
    Our first witness is Mr. Hans von Spakovsky, Senior Legal 
Fellow in the Center for Legal and Judicial Studies at the 
Heritage Foundation, and Manager of the Civil Justice Reform 
Initiative. He has published extensively on elections, voting, 
and civil rights issues, including the management of the Civil 
Rights Division and the handling of its enforcement 
responsibilities.
    Prior to his time at The Heritage Foundation, Mr. von 
Spakovsky was a Commissioner on the Federal Election Commission 
and a career civil service lawyer in the Civil Rights Division 
of the Department of Justice. As a Counsel to the Assistant 
Attorney General for Civil Rights, he helped coordinate the 
enforcement of Federal laws that guarantee the right to vote.
    Our second witness today is Mr. Harry Mihet, Senior 
Litigation Counsel with Liberty Counsel, an international 
nonprofit litigation, education, and policy organization 
dedicated to advancing religious freedom, the sanctity of life 
and the family. Liberty Counsel is associated with Liberty 
University, which I am proud to say is in Lynchburg, Virginia, 
a part of the 6th District that I represent.
    Mr. Mihet grew up in communist Romania, where his father 
pastored 17, mostly underground, churches. Because of this, his 
family suffered great persecution. At the age of 12, he 
participated in the Christmas Revolution of 1989, which 
overthrew Romania's oppressive communist regime. Once he 
immigrated to the United States, Mr. Mihet received his 
undergraduate degrees in Political Science and Criminology from 
the University Florida and graduated magna cum laude from Duke 
University School of Law.
    The third member of our witness panel is Mr. Bagenstos, a 
professor of law at Michigan Law School. Mr. Bagenstos 
specializes in civil rights law, public law, and litigation.
    From 2009 to 2011, he was a political appointee in the U.S. 
Department of Justice, where he served as the Principal Deputy 
Assistant Attorney General for Civil Rights, the number two 
official in the Civil Rights Division. He has been widely 
published in law journals, and remains an active appellate and 
Supreme Court litigator in civil rights and federalism cases.
    He clerked for Judge Steven Reinhardt on the 9th Circuit 
Court of Appeals and for Justice Ruth Bader Ginsburg of the 
United States Supreme Court.
    Our final witness is Mr. J. Christian Adams, the founder of 
the Election Law Center. In addition, Mr. Adams, also serves as 
legal editor of PJMedia.com, an Internet news publication.
    Previously, Mr. Adams served in the Voting Section at the 
U.S. Department of Justice from 2005 to 2010, where he brought 
a wide range of election cases to protect racial minorities in 
South Carolina, Florida, and Texas. Mr. Adams successfully 
litigated the landmark case of United States v. Ike Brown in 
the Southern District of Mississippi, the first case brought 
under the Voting Rights Act on behalf of a discriminated 
against White minority in Noxubee County.
    Mr. Adams has received the Department of Justice Award for 
Outstanding Service and numerous other Justice Department 
performance awards.
    I thank all of you for joining us, and we will begin with 
Mr. von Spakovsky. Each witness has written statements that 
will be entered into the record in their entirety. I ask that 
each of you summarize your testimony in 5 minutes or less. To 
help you stay within that time, there is a timing light on your 
table. When the light switches from green to yellow, you will 
have 1 minute to conclude your testimony. When the light turns 
red, it signals that the witness' 5 minutes have expired.
    We will now proceed under the 5-minute rule. And, Mr. von 
Spakovsky, welcome.

  TESTIMONY OF HANS A. von SPAKOVSKY, SENIOR LEGAL FELLOW AND 
     MANAGER, CIVIL JUSTICE REFORM, THE HERITAGE FOUNDATION

    Mr. von Spakovsky. Thank you. I appreciate the invitation 
to discuss the mismanagement of the Civil Rights Division and 
its toxic culture where I spent 4 years as a career lawyer.
    The IG report is a sad commentary on a dysfunctional 
division torn by polarization and unprofessional behavior, 
where career employees who do not tow liberal views are 
subjected to racist comments, harassment, bullying, and threats 
of physical violence. It is engaged in discriminatory hiring 
practices and has pursued meritless cases based on ideology 
rather than the law.
    Perhaps the most disturbing problem is the hostility toward 
race neutral enforcement of Federal voting laws. The IG report 
details the ostracism of employees who believe in race neutral 
enforcement by those who do not think that racial minorities 
who discriminate should be discriminated.
    This culminated in the mistreatment of Christopher Coates, 
the chief of the Voting Section who has received numerous 
awards for his outstanding work, including from the NAACP. This 
Administration drove Coates out because they disagreed with his 
proper race neutral view of the law that individuals who 
violate Federal law should not be given a free pass because of 
their race. This is one of the most shameful revelations in the 
IG report.
    The Division also ordered Christopher Coates and Christian 
Adams not to respond to subpoenas from the U.S. Commission on 
Civil Rights, which was investigating the dismissal of the New 
Black Panther voter intimidation case. Apparently this Division 
does not believe it has to abide by the rule of law like 
everyone else.
    The head of the Division, Thomas Perez, misled the U.S. 
Civil Rights Commission in his testimony about the New Black 
Panther case. He was specifically asked whether ``any political 
leadership was involved in the decision not to pursue the 
case.'' Perez said no, yet a Federal judge has said that DoJ's 
internal documents contradict that testimony. The IG said Perez 
should have sought more details about this before his 
testimony. Being uninformed on the correct answer to this 
question was the result of either incompetence or deliberate 
ignorance.
    Further, Perez was specifically asked whether he knew about 
the hostility toward race neutral enforcement of his staff. 
Perez said there were ``no people of that ilk in the 
Division.'' Yet Coates and Adams briefed Perez the day before 
his testimony about that disgusting attitude.
    Perez was also specifically asked whether he believed in 
the race neutral enforcement. He told the Commission he did, 
yet the IG report says that Perez informed the IG that he does 
not believe that White voters are protected under Section 5 of 
the Voting Rights Act.
    The Division also abuses its power through radical claims 
and filing meritless suits. In the Hosanna-Tabor case before 
the Supreme Court, Mr. Perez signed onto a brief arguing that 
the religious freedom clause of the First Amendment did not 
extend to the hiring decisions of a church. This was such an 
extreme position that all nine justices of the Supreme Court 
found the arguments of the Justice Department untenable.
    In addition to the FACE Act cases, which Mr. Mihet is going 
to talk to you about, the Division was forced to pay Arkansas 
$150,000 last year when a case under the Civil Rights for 
Institutional Persons Act was dismissed by a Federal court 
after the judge found almost no evidence to support the 
Division's claims.
    The Division has tried to twist Federal discrimination laws 
to go after school districts for having dress codes that 
prevent boys from going to school in drag. The Administration 
also has engaged in biased hiring, setting up criteria that 
``resulted in a pool of select candidates that was 
overwhelmingly Democratic liberal in affiliation,'' according 
to the IG. The IG report notes that ``The Voting Section passed 
over candidates who had stellar academic credentials and 
litigation experience with some of the best law firms in the 
country.'' The Division might as well have put up a sign that 
said ``conservatives need not apply.''
    Let me conclude by talking about an issue that shows just 
how bad the situation is in the Division that is a personal 
issue.
    The IG report describes the nasty postings made by career 
staff on ``widely-read liberal Websites concerning Voting 
Section work and personnel.'' The highly offensive comments 
included suggestions that the parents of one former career 
Section attorney were Nazis. Those comments were directed at 
me. My mother grew up in Nazi Germany, and she was arrested by 
the Gestapo when she was a teenager. That she survived is a 
testament to her courage and the grace of God. My father fled 
communist Russia and fought as a partisan against the Nazis in 
Yugoslavia during World War II.
    It is shameful that such cruel, untrue comments were made 
publicly about my parents by fellow employees because of my 
personal views and my belief that the Voting Rights Act 
protects all voters from discrimination. Believing in equal 
enforcement of the law makes you a pariah in the Division and 
subject to being called a Nazi.
    Some of these same employees are no doubt sitting in their 
offices at 1800 G Street watching this hearing today. Employees 
who bragged to the IG about their harassment and cyber bullying 
of conservative employees are still employed by the Division as 
is another unapologetic employee who admitted committing 
perjury. The Division is filled with biased and unprofessional 
behavior that is unacceptable from a government lawyer, and 
conservative employees continue to be marginalized.
    The Division must enforce the law equally and fairly in a 
manner that meets the highest ethical and professional 
standards and protects all Americans from discrimination. That 
is not being done in the Civil Rights Division today.
    Thank you.
    [The prepared statement of Mr. von Spakovsky follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Goodlatte. Thank you, Mr. von Spakovsky.
    Mr. Mihet, welcome.

                TESTIMONY OF HORATIO G. MIHET, 
           SENIOR LITIGATION COUNSEL, LIBERTY COUNSEL

    Mr. Mihet. Chairman Goodlatte, Ranking Member Conyers, and 
Members of the Judiciary Committee, thank you for inviting me 
to testify before you today. My name is Horatio Mihet, and I am 
Senior Litigation Counsel at Liberty Counsel, a nationwide 
nonprofit firm dedicated to protecting our first freedoms.
    Having grown up under a totalitarian regime, I have seen 
firsthand what happens when the very government agency charged 
with protecting civil rights becomes complicit in violating 
them. Unfortunately, that is precisely what the Civil Rights 
Division under the leadership of Thomas Perez has done with 
Liberty Counsel's client, Susan Pine, a 61-year-old American 
from Florida.
    Susan has for over 20 years spent her free time outside of 
an abortion clinic peacefully counseling expectant mothers 
about alternatives to abortion. In 2009, after trying 
unsuccessfully for years to silence Susan, the abortion clinic 
began to entreat the DoJ to eject her from that public square. 
Mr. Perez readily agreed, and he assigned seven of his top 
litigators, including himself, to file a lawsuit against Susan 
under the Freedom of Access to Clinic Entrances Act, or FACE.
    Now, before filing this lawsuit, Mr. Perez flew several of 
these taxpayer-funded lawyers from Washington, D.C. to Florida 
in November 2009 to have a taxpayer-funded stakeout outside 
this clinic, to see if by chance Susan might violate the law 
while these lawyers are hiding in the bushes watching her. In 
its lawsuit filed 9 months later, the DoJ then claimed that on 
the same day that its lawyers were descending upon West Palm 
Beach, Susan obstructed one vehicle attempting to enter the 
clinic's parking lot.
    Now, there were many clear signs indicating to every 
reasonable observer that this was nothing more than a political 
prosecution not grounded in any fact or law. First, there was 
no victim. No one actually came forward to complain of being 
obstructed. Instead, the lawsuit was filed entirely based on 
what one police officer claimed that he saw from the bushes 300 
feet away. This officer conveniently forgot to record the 
license plate of this phantom vehicle, and he forgot to 
identify this mystery driver that was allegedly obstructed, so 
that all we had was his word.
    Second, Mr. Perez did not file his lawsuit in November 
2009. He waited over 9 months to file it, just long enough for 
the clinic to conveniently destroy the videotapes from its 
surveillance cameras, as well as its patient sign-in sheets. 
The court found that the DoJ was ``negligent'' and ``even 
grossly negligent'' in its failure to preserve this critical 
evidence.
    Third, the DoJ claimed that Susan ``stopped and stood in 
front of a vehicle in the pedestrian crosswalk.'' Now, this 
allegation was entirely made up by the DoJ because its own 
witness, the police officer hiding in the bushes, testified 
under oath that once this phantom vehicle stopped, Susan 
``immediately got out of its path.'' The officer himself 
admitted that she did not stop and stand in front of any 
vehicle.
    And so, after almost 2 years of litigation against Mr. 
Perez and his legal dream team, the court concluded that the 
DoJ suit did not even warrant a trial, and granted us summary 
judgment. Judge Ryskamp said, ``The court is at a loss as why 
the government chose to prosecute this particular case in the 
first place.'' He concluded that the DoJ's position was 
inconceivable and absurd, and he suspected a conspiracy was 
afoot between the DoJ and the clinic to deprive Susan of her 
First Amendment rights.
    We asked the Court, based on its findings, to sanction Mr. 
Perez and his legal team for filing a frivolous lawsuit. Rather 
than await the results of that motion, Mr. Perez and his team 
quietly paid $120,000 out of the public treasury and then moved 
on to their next target.
    So throughout this litigation and several others like it, 
the leadership at the Civil Rights Division has demonstrated 
that it cannot be trusted to follow the law whenever it 
conflicts with their ideology. We, therefore, would urge this 
Committee to exercise its constitutional authority and 
oversight, and to take whatever steps are necessary to restore 
the public's trust in the institution that is charged with 
safeguarding and protecting our most basic and cherished 
freedoms.
    I thank you for inviting me, and I look forward to 
answering any questions that you might have.
    [The prepared statement of Mr. Mihet follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               SUPPLEMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Goodlatte. Thank you very much.
    Professor Bagenstos, welcome.

    TESTIMONY OF SAMUEL R. BAGENSTOS, PROFESSOR OF LAW, THE 
               UNIVERSITY OF MICHIGAN LAW SCHOOL

    Mr. Bagenstos. Thank you. Thank you, Mr. Chairman, and 
thank you, Ranking Member Conyers, and Members of the Committee 
for inviting me to testify today. I have had the privilege in 
my life of serving twice in the Civil Rights Division of the 
Justice Department, first at the beginning of my career as a 
career attorney where I really learned how to be a lawyer from 
the excellent career attorneys who had been civil servants 
throughout many Administrations in the Civil Rights Division, 
and then as a member of the senior leadership team in the 
Division as a political appointee from mid-2009 to mid-2011. 
And I began service as Principle Deputy Assistant Attorney 
General in January of 2010, which was one of the great honors 
of my career.
    Now, I discuss in my written testimony the many, many 
achievements, and only a subset of the many, many achievements, 
of the Division in the last 4 years. Let me just note a few 
here because they are extremely notable: 40 percent more human 
trafficking cases; nearly 75 percent more hate crimes 
convictions than the previous 4 years; an unprecedented effort 
to enforce the Supreme Court's Olmstead decision for people 
with disabilities, including 44 matters in 23 States with major 
settlements with North Carolina, Virginia, Georgia, and 
Delaware; 16 agreements to guarantee services to English 
language learners; 10 agreements to address the serious problem 
of discriminatory harassment that keeps kids from learning; 
record setting settlements for sexual harassment by landlords 
of their tenants; and more than $600 million in settlements for 
violations of the Fair Lending Laws.
    More than $50 million in relief for our soldiers and 
sailors under the Service Member Civil Relief Act; nearly 40 
percent increase in the number of cases brought to enforce the 
employment rights of our returning veterans; and landmark 
settlements with the New Orleans Police Department and the 
Shelby County, Tennessee juvenile just system, in addition to 
many, many others.
    But perhaps the best illustration of the success of the 
Assistant Attorney General Perez's effort comes from the voting 
rights area. When Tom Perez arrived in 2009, in October of 
2009, the Division's Voting Section was in disarray, and his 
career staff was demoralized. Both the IG's recent report and 
its 2008 joint report with the Office of Professional 
Responsibility document this fact extensively. Those reports 
show massive turnover among career attorneys from 2003 to 2008, 
and a pervasive atmosphere of politicization in the Voting 
Section, an atmosphere that stemmed--unfortunately I hate to 
say this--but an atmosphere that stemmed directly from the 
reports found to be the unlawful politicized hiring decisions 
made by a former Acting Assistant Attorney General, Brad 
Schlozman.
    Details are in my written testimony, but the 2008 joint 
report really bears careful reading for anyone who wants to 
understand the management task that Tom Perez was confronting 
when he took over.
    Now, this kind of pervasive politicization of the career 
civil service from the very top is a culture that cannot be 
changed overnight, and nobody thinks it can. But Tom Perez 
realized he had to begin right away to restore the culture of 
nonpartisanship, transparency, and professionalism to the 
Division, and that is exactly what he did.
    After taking office in October of 2009, he quickly moved to 
restore a career-driven, merit-based hiring process, and the 
recent OIG report demonstrates that this process has been 
successful. In making hires under the new policy, the report 
found, the Voting Section ``was keenly focused on the 
candidates' voting litigation experience and substantive 
knowledge of voting rights.'' That is exactly what they should 
have been focused on.
    The report found that the new attorneys had ``a high degree 
of academic and professional achievement, and that the hired 
attorneys had substantially higher achievement than the people 
who were not hired.'' Now, of course, culture change takes 
time, but the Voting Section has made major progress, and the 
proof is in the results.
    In each of the past 2 Fiscal Years, the Section set a 
record for the largest number of new matters in litigation it 
has handled: 43 last year, 27 the year before. These include 
major, major cases defending judicial preclearance actions and 
defending the constitutionality of Section 5 of the Voting 
Rights Act. In the last 4 years, the Section has filed and 
obtained settlements in seven cases to enforce the Voting 
Rights Act's language minority provisions, including the first 
case brought on behalf of Native Americans since 1998. It has 
filed new lawsuits under Section 7 of the National Voter 
Registration Act, including a major settlement with the State 
of Rhode Island, and it has vigorously enforced the MOVE Act, 
which ensures that our men and women in uniform and other 
citizens overseas have their voting rights protected. Twenty-
one litigations or settlements since the act took effect, all 
in this Administration, including filing lawsuits and obtaining 
consent degrees or preliminary injunctive relief against six 
States and the Virgin Islands in the 2012 election alone.
    Now, similar stories could be told throughout the Division. 
When Tom Perez arrived at the Civil Rights Division, it was 
divided and demoralized. The work is not done, but thanks to 
his leadership and management skills and the very hard work of 
extraordinarily dedicated career attorneys, things have turned 
around, and I am very pleased to testify about that today.
    [The prepared statement of Mr. Bagenstos follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Goodlatte. Thank you very much.
    And our final witness, Mr. Adams. Welcome.

               TESTIMONY OF J. CHRISTIAN ADAMS, 
                  FOUNDER, ELECTION LAW CENTER

    Mr. Adams. Thank you, Mr. Chairman, Ranking Member Conyers, 
and Members of this Committee.
    While at the Department, I was fortunate to serve with 
dedicated attorneys and staff who had profound respect for the 
rule of law and placed integrity at the center of their 
personal and professional life.
    Unfortunately, over the last few years, the Civil Rights 
Division of the Justice Department has seen instances of 
embezzlement, employee abuse, harassment, theft, and perjury. 
Little to nothing has been done by Division management in 
response. In some cases, Division management has defended, or 
promoted, or given awards to the wrongdoers.
    Tragically, the Civil Rights Division has also pursued 
abusive and meritless cases against Americans exercising free 
speech rights, as well as States enacting voter integrity 
measures. So meritless, courts have imposed cost sanctions 
against the Division. Simply, the Civil Rights Division under 
the current management have pervasively abused the civil rights 
of Americans, abused the fiscal trust of the taxpayers, and 
abused the rule of law.
    Perhaps worst of all, Thomas Perez, the Assistant Attorney 
General for Civil Rights, has repeatedly provided inaccurate 
testimony under oath to this Committee, as well as the Civil 
Rights Commission on multiple matters, including whether or not 
he knew that this corrosive and abusive atmosphere existed 
inside his Division toward employees willing to enforce the 
voting laws in a race neutral fashion.
    This hostility toward enforcement of voting laws in a race 
neutral has festered into name calling, harassment, racial 
attacks on DoJ employees, both Black and White, who were 
willing to enforce the law race neutrally. For example, the IG 
report documents vile racial harassment against an African-
American paralegal, who served on the New Black Panther case 
with me and another similar matter. This dedicated and 
hardworking paralegal, as well as his mother, who is a long-
time DoJ employee, was subject to cruel racial harassment by 
other DoJ employees for working on the New Black Panther case. 
When Mr. Perez testified in May of 2010 before the U.S. 
Commission on Civil Rights that he had never heard of this sort 
of hostility, he testified falsely.
    My written testimony details multiple instances of 
harassment of an employee also for his evangelical 
Christianity.
    There is a false perception that the Division has 
vigorously protected minority voting rights more than the prior 
Administration. The current Administration has failed to 
initiate a single Section 2 Voting Rights Act case 
investigation which resulted in enforcement action since the 
inauguration in 2009. Voter rolls nationwide are filled with 
millions of ineligible and dead voters, yet the Division is 
deliberately refusing to enforce Section 8 of the National 
Voter Registration Act, and require States to purge their voter 
rolls because Division leadership, as detailed in the IG 
report, has a philosophical disagreement with this purging 
statute. Hundreds of counties across the country now have more 
voters registered than people alive, and this Division 
leadership spiked investigations into these places.
    A Washington Times story headlined, ``Taxpayers Finance 
Justice Officials' Romantic Travel,'' reported that a Division 
employee embezzled at least $30,000 in money and travel, 
including hotel rooms in Miami, and according to Senator 
Grassley--excuse me, and cash advances. Current Division 
leadership oversaw this fiasco, yet according to Senator 
Grassley, did absolutely nothing about it. The whistleblowers 
in this case have been treated more poorly by Division 
leadership than was the person who took the money.
    Division leadership has overruled career lawyers who 
recommended South Carolina voter ID be pre-cleared in 2011 
under Section 5 of the Voting Rights Act. Their recommendation 
was overruled. An expensive, costly, and ultimately meritless 
objection was interposed. South Carolina was forced to spend 
over $3.5 million to obtain approval of South Carolina voter 
ID. The Federal taxpayers almost certainly also wasted 
millions.
    As I have already testified, the hostility in the Division 
toward equal enforcement of civil rights laws was open and 
pervasive. The IG report confirms all of my testimony in that 
regard. Former Voting Section Chief Christopher Coates was 
subject to harassment, and many of those employees who engaged 
in this conduct are still employed by the Division.
    Coates was targeted for removal by the Division and 
political appointees specifically because of his willingness to 
enforce the law equally. The Attorney General was even aware of 
this and did not instruct Division leadership that it could be 
illegal to target Coates in this way. The IG report documents 
many other details.
    In a few decades, America will look very different. The 
founding documents presume that all Americans should be treated 
equally before the law, and it is time that the Civil Rights 
Division act accordingly.
    [The prepared statement of Mr. Adams follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Goodlatte. Thank you, Mr. Adams.
    We will now proceed under the 5-minute rule with questions, 
and I will begin by recognizing myself for 5 minutes.
    First, I would like to ask unanimous consent to put into 
the record a joint report of the House Committee on Oversight 
and Government Reform, the House Judiciary Committee, and the 
Senate Judiciary Committee minority. The report is titled, 
``DoJ's Quid Pro Quo with St. Paul: How Assistant Attorney 
General Thomas Perez Manipulated Justice and Ignored the Rule 
of Law.''
    Without objection, it will be made a part of the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Goodlatte. And I would like to ask my first question to 
Mr. von Spakovsky and Mr. Adams, and I would like to ask you 
this: in your experience as attorneys at the Justice 
Department, whether you or do you know of anyone else who ever 
participated in or ever became aware of a quid pro quo like the 
one that occurred between Tom Perez and the City of St. Paul? 
That is, a deal in which the United States agreed to settle two 
cases in which the United States could have made a significant 
recovery to the United States Treasury in one in exchange for a 
litigant dismissing a case in which the United States was not 
even a party?
    Mr. von Spakovsky?
    Mr. von Spakovsky. Mr. Chairman, I am not aware of anything 
like that happening. When I was at the Civil Rights Division, I 
knew people in the Civil Division, which was involved in this 
particular deal. And we would have considered it improper and 
unethical to have requested the Civil Division to give up a qui 
tam action under the False Claims Act where the American 
taxpayer was possibly going to recover $200 million, especially 
in this case, which, as I understand it, both HUD, the Civil 
Division, and the U.S. Attorney's Office in Minnesota thought 
it was most egregious examples of false certifications they had 
ever seen. To ask them to dismiss a case like that in exchange 
for asking St. Paul to dismiss a case in which we were not even 
a party because they were afraid the Supreme Court would toss 
out a discredited legal theory.
    I mean, I think that is unethical, and I think, quite 
frankly, it violates professional codes of conduct. For 
example, Rule 1.3 of the D.C. Code, which says that you are not 
supposed to intentionally fail to seek lawful objectives of a 
client or prejudice or damage a client. And that is, in fact, 
what happened this case, prejudicing and damaging the False 
Claims Act that the American taxpayer had.
    Mr. Goodlatte. Mr. Adams?
    Mr. Adams. Mr. Chairman, that would have been radioactive 
for us to leverage one division's enforcement authority to a 
civil rights matter.
    But the report from the House Oversight Committee had 
something even more disturbing, and that is that the Assistant 
Attorney General was doing this by using his personal Verizon 
email account. When he was asked by Oversight Committee 
investigators whether or not he was using his personal email to 
do the St. Paul, he said he did not recall until he was 
confronted with a document showing that he did, and then he 
recalled.
    Mr. Goodlatte. Mr. Adams, in a 2012 decision by the D.C. 
District Court, the court states, ``The documents reveal that 
political appointees within the Department were conferring 
about the state and resolution of the New Black Panther Party 
case in the days preceding the Department's dismissal of claims 
in that case,'' which would appear to contradict Assistant 
Attorney General Perez's testimony that political leadership 
was not involved in the decision.
    Did Mr. Perez mislead the Civil Rights Commission and the 
Congress?
    Mr. Adams. Well, there are two points involving Mr. Perez's 
testimony, and the first one the IG report deals with. The 
second does not deal with in the IG report.
    The first one. He was asked whether or not anybody besides 
career lawyers were involved in the decision to dismiss the New 
Black Panthers, and he testified no. The IG report says he was 
not forthcoming. He should have inquired into greater detail. 
It did not accuse him of committing perjury.
    The second point, though, is more important, and the IG 
report is silent. He was asked whether or not he knew about the 
open and pervasive hostility toward race neutral enforcement, 
which frankly is worse than political appointees being involved 
in the dismissal. He testified that there were no people of 
that ilk in that Division. Of course, that is false. He knew 
there were people of that ilk because we told him the day 
before there were. Secondly, the IG report details dozens of 
instances of people of that ilk, including him----
    Mr. Goodlatte. Mr. Adams, I am going to interrupt you 
because I have got one more question to ask you, and then you 
can answer that, and then we will move on to the Ranking 
Member.
    In your written testimony, you cited a December 2009 
statement that Mr. Perez made before the American Constitution 
Society where he stated, ``Those who have been entrusted with 
the keys to the Division treated it like a buffet line at the 
cafeteria, cherry picking which laws to enforce.'' In your 
opinion, does Mr. Perez's record as Assistant Attorney General 
reflect an improvement of this image of the Civil Rights 
Division?
    Mr. Adams. It is worse. I would put our record up against 
anybody in the Division. We brought cases under Section 2 to 
protect minority voting rights, Section 203, foreign language 
protections. We protected people under both Section 7 and 
Section 8 of Motor Voter. We enforced all the laws. We did not 
treat it as a buffet line.
    It has been precisely the opposite. No Section 7. No 
Section 2. Barely any Section 203 cases. They are focused on 
different priorities instead of all priorities.
    Mr. Goodlatte. Thank you very much. My time has expired.
    The gentleman from Michigan, Mr. Conyers, is recognized for 
5 minutes.
    Mr. Conyers. Thank you. Mr. Chairman, I ask unanimous 
consent to enter in the Democratic staff findings on the 
results of the investigation of the St. Paul decision, and also 
10 errors and mischaracterizations and omissions in the other 
report.
    Mr. Goodlatte. Without objection, they will be made a part 
of the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________

    Mr. Goodlatte. And the gentleman is recognized.
    Mr. Conyers. Thank you. Could I begin by asking Professor 
Bagenstos to just review, since we are all under 5 minutes, 
just a couple of the problems that we have had with the 
accuracy of the allegations. It sometimes seems like we are 
talking about two completely different sets of events and work 
in the Civil Rights Division.
    Mr. Bagenstos. I think that is right, you know. So when I 
read the Inspector General's report with great interest, as I 
think everybody at this table did, what I saw in the report is, 
number one, the report goes through allegations of politicized 
hiring in this Administration and finds there was no 
politicized hiring in this Administration.
    The report rehashes once again what had already been 
investigated by the Office of Professional Responsibility with 
respect to the New Black Panther case, and finds, as the Office 
of Professional Responsibility did, there was nothing illegal, 
unethical, or improper that happened in that case.
    The report finds a number of incidents of harassment of 
employees, which are unacceptable, and I want to say that. But 
I will note that the incidents of harassment of employees that 
the report finds are centered in the period between 2003 and 
2007, and there are no incidents of harassment found by the 
report that I could find that post-dated 2009. Of course, Tom 
Perez became Assistant Attorney General in October of 2009.
    Mr. Conyers. Right.
    Mr. Bagenstos. Obviously there is work still to be done, 
but that is consistent with him making substantial progress.
    Mr. Conyers. Now, in your view, did Mr. Perez not reverse 
some of the unlawful practices and negative trends that had 
been established before he became the head of this part of the 
Civil Rights Division?
    Mr. Bagenstos. Absolutely. And so the two examples are, 
one, the career driven, nonpartisan, merit-based hiring 
process, which, as I said in my prepared and spoken testimony, 
the Inspector General found was successful in hiring people 
with a high degree of skills. Also restoring the role of career 
attorneys in the Section 5 pre-clearance process is 
exceptionally important, and that was something that was a very 
big priority of Tom Perez's.
    Mr. Conyers. Yes. And after the departure of the Bush 
administration, did you find that Mr. Perez took the 
appropriate steps to address the Inspector General's 2008 
findings after becoming what has now been characterized, a 
division in crisis?
    Mr. Bagenstos. I think he did, absolutely. Absolutely. I 
think, you know, it was Tom Perez's major priority from day one 
to restore the traditions of the Civil Rights Division, which 
is a nonpartisan tradition of enforcement of civil rights. As I 
said when I started my career as a career attorney, the people 
who I looked up to, the people who are my bosses, my first boss 
had actually had been hired during the Reagan administration. 
You know, Tom Perez came to work as an intern in the Reagan 
administration. He wanted to restore that, and I think the 
evidence suggests that he did restore the nonpartisan, and 
merit-based, and career driven aspects of our practice.
    Mr. Conyers. Well, I am the only Member of this Committee 
that voted to pass the 1965 Voting Rights Act. That is because 
I was the only one here. It was not they were not in support of 
it. But I was grateful when Jim Sensenbrenner on this Committee 
joined with us and others when we reenacted and went further in 
2006. And we now have Section 5, pre-clearance. Why is that so 
crucial to halting discriminatory practices in voting?
    Mr. Bagenstos. It is so crucial. I think, you know, the 
best example of that actually is given by the preclearance 
decisions of the Federal District Court this year, this past 
year, in response to the objections or litigation by the 
Justice Department. When the District Court in D.C., Republican 
and Democratic judges, Democratic appointed judges, denied pre-
clearance to various voting chances because they said there is 
still substantial discrimination going on, and these laws are 
still necessary.
    Judge Bates, a George W. Bush appointee to the District 
Court, who wrote the opinion upholding the Voting Rights Act 
extension, also said in the South Carolina case, look, this is 
an example of why we need Section 5 of the Voting Rights Act.
    Mr. Conyers. Exactly. Thank you very much. Very much.
    Mr. Goodlatte. I thank the Ranking Member.
    And the Chair now recognizes the gentleman from Iowa, Mr. 
King, for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. I thank the witnesses, 
and I happened to have a couple of flashbacks from testimony 
before this Committee by Mr. Perez. And I picked out some of 
the language along the line of our witnesses. I turn first to 
Mr. von Spakovsky and ask you, as you testified, as you 
reviewed this, as you read the record, I would like to take 
this to the perjury discussion.
    If I remember right, Mr. Perez was sitting in exactly that 
same chair when he told me that the maximum penalty under the 
law had been applied to the perpetrators at the Philadelphia 
New Black Panthers case. Do you have knowledge of that 
testimony, and do you believe that his testimony, that that was 
the maximum penalty applied under the law, was a dishonest 
statement before this Committee?
    Mr. von Spakovsky. Well, I have never seen a case in my 
career at the Justice Department where the Department decided 
when the defendant defaulted and did not answer the claim, 
therefore, admitting all of the allegations, would suddenly 
decide to dismiss the case.
    And the one injunction that they did get was considerably 
weakened. It was for a short period of time. And all too early 
at times, one of the defendants who had engaged in this 
despicable behavior was a poll watcher again in Philadelphia.
    Mr. King. And when Mr. Perez testified that they had 
applied the maximum penalty under the law, and I asked him 
specifically, do you believe that today that the maximum 
penalty was obtained, and his answer was, that was the maximum 
penalty. We know today that it was, in fact, a minimum penalty 
rather than a maximum penalty. Would you agree with that?
    Mr. von Spakovsky. I would agree with that, yes.
    Mr. King. Thank you. And I would turn to Mr. Adams with a 
similar question. You have been involved in the middle of this 
and you have watched this unfold. I recall also testimony, a 
question that was asked by Mr. Gohmert. Five times he asked Mr. 
Perez, did you review the videotape of the New Black Panther 
intimidation that took place in Philadelphia, and after the 
fifth question, he finally and reluctantly answered, yes. If 
you were evaluating this for potential prosecution of someone 
who was not forthcoming, would that be something that would 
bring your antenna up to listen very carefully to the balance 
of his answers? And what is your viewpoint on whether perjury 
was committed before this Committee?
    Mr. Adams. Well, Mr. King, I do not have the benefit of Mr. 
Perez's transcript. But I will say this, that there are 
criminal penalties associated with violations of Section 11 of 
the Voting Rights Act, which, as far as I know, could still be 
imposed against those New Black Panthers. They could still be 
indicted today.
    There are nationwide injunctions available, and as you 
know, the injunction was restricted to the city of 
Philadelphia, and it was limited in time as opposed to being 
permanent.
    Mr. King. And so the testimony by Mr. Perez, it is a clear 
matter of the record that they had applied the maximum penalty 
allowable under the law. Could you devise how that could be an 
honest statement before this Committee?
    Mr. Adams. Well, I would prefer to see the Black Panthers 
indicted. Obviously that has not happened.
    Mr. King. And I will make this point back again, that in a 
Justice Department that would objectively be not choosing from 
the cafeteria form of what to prosecute, what kind of justice 
under the law could happen when you have an Administration, an 
Attorney General, and an Assistant Attorney General that all 
seem to agree that the civil rights cases under the law should 
be brought selectively with a preference for people of, let me 
say, certain ethnicity or race.
    How would justice ever prevail in an Administration that 
was locked in from the White House, to the Attorney General, to 
the Assistant Attorney General, and have people come before 
this Committee and provide dishonest statements to the Justice 
Department? Is there anybody out there that can prosecute 
perjury if it takes place before this Committee, or how would 
that take place?
    Mr. Adams. Well, I would probably direct that question to 
your staff. But generally speaking, it is important to have 
equal enforcement of the law. It is a bedrock principle of 
America that----
    Mr. King. Mr. Adams, I know you have contemplated this, so 
could you give me a little bit more, maybe a hypothetical 
response on how that might happen at a different time----
    Mr. Adams. Sure. I mean, the U.S. Attorney would look at a 
transcript, the U.S. Attorney for the District of Columbia----
    Mr. King. Pardon me, I am sorry?
    Mr. Adams [continuing]. Would look at a transcript, look at 
the law, and make a decision. But to get the U.S. Attorney from 
the District of Columbia to do so may be a task.
    Mr. King. That is my point. And I would turn back to Mr. 
von Spakovsky. How would justice prevail under the 
configuration that I have described hypothetically?
    Mr. von Spakovsky. Well, there are not often voting cases 
pursued by the Department where they have video evidence. And I 
was at the Civil Rights Commission when the poll watchers and 
others who were actually there came in and testified, and it 
was extremely strong testimony. I think it would be fairly easy 
to win a criminal prosecution for voter intimidation.
    Mr. King. Easy to win, and perhaps difficult to confirm 
someone who would perpetrate such a thing.
    I thank all the witnesses, and I yield back the balance of 
my time.
    Mr. Gowdy [presiding]. I thank the gentleman from Iowa.
    The Chair would now recognize the gentleman from New York, 
Mr. Nadler.
    Mr. Nadler. Thank you. Mr. von Spakovsky, do you have any 
firsthand personal knowledge of the Magner v. Gallagher case, a 
matter about which you testified, yes or no?
    Mr. von Spakovsky. No.
    Mr. Nadler. Thank you very much. I would point out that 
people have investigated this and have talked to the 
individuals involved. Namely, the minority staff have concluded 
there was no inappropriate conduct.
    Since we have wasted our time with more misinformation 
about the New Black Panther Party case, let me just comment 
that that case was investigated in the recent OIG report as 
well as in a prior Office of Professional Responsibility 
report. The allegations of voter intimidation were taken 
seriously in that case, as they should be. Without any evidence 
that any voter felt intimidated, and having determined that 
many of the charges lacked sufficient evidentiary support, 
experienced career DoJ lawyers decided to dismiss some of the 
defendants in that case. These decisions came before Assistant 
Attorney General Perez assumed leadership of the Civil Rights 
Division.
    We have now spent 6 years and hundreds of thousands of 
taxpayer dollars investigating baseless allegations that these 
decisions were racially or politically motivated. Those 
allegations have now been investigated and debunked twice 
before we hear crap again today with both the Inspector General 
and the----
    Mr. Issa. Would the gentleman yield?
    Mr. Nadler. No, I will not.
    Mr. Issa. I did not catch the word.
    Mr. Nadler. What word?
    Mr. Issa. We hear something. Again, I could not understand 
what it is.
    Mr. Nadler. I think I said ``nonsense.''
    Mr. Issa. Okay, ``nonsense.'' That is what I thought, thank 
you.
    Mr. Nadler. Baseless nonsense, ill-motivated baseless 
nonsense. Those allegations have now been investigated and 
debunked twice with both the Inspector General and the Office 
of Professional Responsibility, finding that these decisions 
were based on the facts in the law and nothing else.
    There should be no bite at this apple. Any continued claims 
of wrongdoing in efforts to taint this Administration or 
Assistant Attorney General Perez with this case should be 
flatly rejected as the ill-motivated nonsense that they are.
    Professor Bagenstos, it has been alleged that little 
changed in the Civil Division from the leadership of the Bush 
administration where key leaders broke the law by engaging in 
politicized hiring personnel practices. Do you agree?
    Mr. Bagenstos. I disagree. Very much has changed. I mean, 
there has been a very substantial change in both the policies 
adopted for purposes of hiring, which have restored 
nonpartisan, merit-based, and career-driven hiring, and there 
has been a change, I think, in the culture of the Division. I 
think it is restored, you know to----
    Mr. Nadler. And these changes to restore de-politicized 
hiring have been made under the leadership of Assistant 
Attorney General Perez?
    Mr. Bagenstos. Under the leadership of Assistant Attorney 
General Perez. He issued the policy, absolutely.
    Mr. Nadler. Thank you. You know, many inflammatory claims 
have been made about the findings of the recent Office of 
Inspector General report. Would you help us clear up the record 
on this, please? Specifically, was there any finding in the 
report of selective enforcement of the law by this 
Administration?
    Mr. Bagenstos. No, there was not.
    Mr. Nadler. Was there any finding in the report that this 
Administration's hiring or personnel practices improperly 
considered the political or ideological views of applicants?
    Mr. Bagenstos. No. In fact, the IG found to the contrary.
    Mr. Nadler. Was there any findings in this report, in the 
OIG report, that this Administration's handling of FOCA 
requests--I am sorry, Freedom of Information Act requests 
favored liberal groups or interests?
    Mr. Bagenstos. No. The IG found that when they were asked 
to respond to requests or requests for pending Section 5 
submissions, regardless of who sent them, they got filled 
quickly, and other requests did not get filled quickly.
    Mr. Nadler. And it is true that we know from the Office of 
Professional Responsibility report, and from this OIG report, 
and the prior OIG report, is it not, that all these things were 
going on during the period of 2003 to 2007 during the prior 
Administration when Mr. von Spakovsky and Mr. Adams were in the 
Department?
    Mr. Bagenstos. Well, certainly as to the politicized hiring 
and the politicized culture within the Division, absolutely.
    Mr. Nadler. Thank you. I would simply comment then that the 
credibility of Mr. von Spakovsky and Mr. Adams, anything they 
testify here lacks any credibility.
    Now, Mr. von Spakovsky, the Inspector General finds the 
disclosure of confidential or deliberative information for 
publication by a third party has ``contributed to partisan 
rancor within the Voting Section.'' That is on page 135. The 
two recent examples given by the IG involved internal 
information related to the two of you--that is, to Mr. von 
Spakovsky and Mr. Adams--and then posted by you on the Internet 
in 2011 and 2012. That is, footnotes 117 and 118 on page 136 of 
the report.
    Do you agree that the employees leaking internal 
information to you should be investigated, Mr. von Spakovsky?
    Mr. von Spakovsky. When they are providing evidence of 
wrongdoing and they can get no responses from people above 
them, in fact, they will be harassed and bullied and 
intimidated for calling attention to things that are being done 
wrong----
    Mr. Nadler. So it is your----
    Mr. von Spakovsky [continuing]. No, I do not think so. I 
think they should be recognized as whistleblowers who are 
trying to right wrongs.
    Mr. Nadler. So people who leak internal information to 
motivate--I will not say motivated--outside individuals should 
not be disciplined, but they should praised.
    Mr. von Spakovsky. No, that is not what I said, Mr. Nadler. 
What I said was that given the current attitudes there and the 
fact that conservative employees there are marginalized, 
harassed, intimidated, when they see wrongdoing, they have no 
alternative because they know that their supervisors and other 
individuals above them will do nothing about it. And, in fact, 
if they become whistleblowers, they will be retaliated against.
    And individuals who are trying to draw attention to things 
that are unlawful and unethical I do not think should be----
    Mr. Nadler. So people who see things that they believe are 
unethical or unlawful, instead of reporting them to law 
enforcement authorities should report them to you.
    Mr. Gowdy. The gentleman's time has expired.
    Mr. Gohmert. Mr. Chairman, I have a point of personal 
privilege. While Mr. Nadler is still here, he referenced more 
than once ill motivation, and it was not clear to me whether he 
was imputing ill motivation finally to Mr. Perez or if he was 
imputing ill motivation to Members of Congress in violation of 
the rules of the House.
    Mr. Nadler. Neither. I was imputing ill motivation to Mr. 
von Spakovsky and to Mr. Adams.
    Mr. Gohmert. Well----
    Mr. Gowdy. The gentleman's time has expired.
    The Chair would now recognize the gentleman from 
California, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman, and I might note for the 
record that without whistleblowers, including the update the 
President recently signed, my Committee next door could not 
operate. We depend on whistleblowers, and, in fact, Fast and 
Furious, Benghazi, the IRS scandal, and right down next door, 
the manipulation that went on and what was disclosed when the 
Park Service complained they would not have enough money for 
toilet paper. All of that was exposed and more by 
whistleblowers. So I want to commend whistleblowers. I would 
prefer they come to Congress. I would prefer they trust my 
Committee. But notwithstanding that, if it is the New York 
Times they feel they have to go to, then I will read the New 
York Times.
    With that, I would like to read an older quote for a moment 
to begin my questioning. Congressman Davy Crockett famously in 
1835, when speaking and coining the phrase, ``log rolling,'' 
``My people don't like me to log roll in their business. To 
vote away their preemption rights to fellows in other States 
that never kindle the fire in their own land.'' He was talking 
about Congress doing quid pro quo, to use a different term.
    Mr. von Spakovsky, in the case of Mr. Perez and his going 
to St. Paul and trading away $200 million of taxpayer potential 
money, and in return for dismissing effectively or killing a 
Supreme Court case, one that might have been decided in a way 
he did not like, was he not, in fact, log rolling through his 
administrative power?
    Mr. von Spakovsky. I think he was, and I think it was 
another example of, frankly, something that Mr. Adams and I saw 
a lot, and that is the inability of individuals going to work 
in the Civil Rights Division, particularly individuals from 
liberal advocacy organizations, being able to make the 
transition to being a government lawyer and understanding that 
their clients were now the American public and the American 
taxpayer.
    Instead, many of them go to work for the Civil Rights 
Division and continue to push and advocate the same kind of 
policies and legal positions that they did at those 
organizations, and they do not make the transition. I think it 
is an example of that.
    Mr. Issa. Now, the same court, the exact same court, that 
decided Obamacare would have decided this civil rights question 
on behalf of people who felt that poor people in a city who 
felt that they should have better solutions than the status quo 
of calculation. Do you trust that Supreme Court?
    Mr. von Spakovsky. Well, I do, and it is very clear that 
this whole deal was done because Mr. Perez believed that the 
Supreme Court, and a lot of commentators agreed, was going to 
toss out these legal theories that were being used. And it is 
important to remember the whole issue here was over a city 
falsely certifying that it was going to use millions of dollars 
to help low income individuals, and they falsely certified to 
doing that.
    Mr. Issa. So I think one of the more important questions 
that I need to get answered is, if you, in fact, bribe a city 
into dropping a case in return for dropping another case, or 
log rolling, to use Davy Crockett, because quid pro quo sounds 
way too highfalutin, and I think the gentleman from Tennessee 
would be more appropriate to quote. If, in fact, that were to 
continue, would we not basically have any number of things? I 
will give you a new courthouse in your district. I will bring 
stimulus funds. Would there not be almost limitless things the 
executive branch could do in return for having the Court not 
see cases they did not want, and see cases they wanted?
    Mr. von Spakovsky. Yeah, I think that would be the start of 
a long trend of doing that.
    Mr. Issa. And is not the fact that that case is now 
basically dead, does that not mean that we have an 
inconsistency? We have one part of the country, one circuit, 
that has one rule and others that may have another? In other 
words, the lack of a clear decision could be years before we 
have one law of the land?
    Mr. von Spakovsky. That is true. And one of the worst 
things that all lawyers will tell you is to have inconsistent 
views and opinions from different courts in the country.
    Mr. Issa. Now, from the IG report, and Mr. Nadler mentioned 
the OIG and the other case. But I just want you to help me with 
something that was said in the OIG report, and I will quote it. 
This is as to Thomas Perez. ``Nevertheless, we found that 
Perez's testimony did not reflect the entire story regarding 
the involvement of political appointees in MBPP decision 
making.'' And then they again say, ``We believe that Perez 
should have sought more details from King and Rosenbaum about 
the nature and extent of participation of political 
appointees,'' et cetera.
    Now, you are more technical than I am. Would you say that 
that is not a lie, but it is not the whole truth?
    Mr. von Spakovsky. What I would say about that is my job as 
counsel to the Assistant Attorney General previously was to 
help prepare my boss, people like Mr. Perez, for testimony 
before hearings like this and before the Commission. We would 
have briefed him on every aspect of that case and gotten all of 
the information necessary to answer every question, 
particularly a question like that, which Perez told the IG he 
anticipated the question.
    Mr. Issa. So what you are saying is he did not tell the 
whole truth, and that was part of what he was sworn to do.
    Mr. von Spakovsky. I believe that is correct.
    Mr. Issa. Thank you, Mr. Chairman. I yield back.
    Mr. Gowdy. I thank the gentleman from California.
    The Chair would now recognize the gentlelady from Texas, 
Ms. Jackson Lee.
    Ms. Jackson Lee. Let me thank the Chair very much, and I 
want to thank Mr. Conyers for refreshing our memory on one of 
the most hope springs eternal moments of this Congress and this 
Committee, which was the reauthorization in 2006-2007 led by 
Mr. Sensenbrenner and many of our colleagues here. And I want 
to thank them for the reauthorization of Section 5 of the 
Voting Rights Act and thank you for your historical perspective 
as well. And I know that the witnesses here would agree with me 
that the legislation lives and provides vitality to democracy.
    I would only offer a caveat and suggest that the hearing 
should be renamed to ``We Lost the Presidency, and Mr. Tom 
Perez is at fault,'' because I see no reason for this hearing. 
I respect my colleagues. But let me just put on the record that 
the Office of Professional Responsibility as it relates to the 
New Black Panther Party did confirm that no mishandling 
occurred, no professional misconduct, no exercise of poor 
judgment. And Mr. Tom Perez was not even at the Department of 
Justice, to my knowledge.
    I note that in the earlier comments, some individuals were 
quoted as indicating that someone was booing at a Member of 
Congress, and as well that someone mentioned something about a 
noose. I would ask, as my good friend who is not here, that 
that individual go immediately and become a whistleblower. To 
my knowledge, it was Facebook, and I would hope because of the 
whistleblower protection, let me very clear to all of those who 
worked hard to cover under the whistleblower protection, that 
would have been the appropriate vehicle in which to be able to 
deal with.
    But let me show what Tom Perez did to uphold democracy, 
because this is a map of shame that shows the variety of voter 
suppression laws across America. If we had not had a diligent 
Justice Department led by Tom Perez, then people who wanted to 
vote, no matter where they came from, would not have had the 
opportunity to vote.
    The Voting Rights Act protects all people. Texas, which 
passed the strictest voter ID law in 2011 fortunately was 
turned back because of the Department of Justice, and people 
were able to vote. If you are not familiar with Texas, you will 
note Romney won the State of Texas. States like Florida that 
had enormous voter suppression that occurred, the Justice 
Department intervened. Ohio that had voter suppression, 
fortunately they turned it back.
    Voter suppression is not democratic, and I am not 
understanding why we are here trying to malign a gentleman who 
worked vigorously to enhance the opportunity for all Americans 
to vote. So let me proceed with some questioning for Mr. von 
Spakovsky.
    Mr. von Spakovsky, do you know perjury is? Can you explain 
that to me?
    Mr. von Spakovsky. Well, any lawyer will tell you perjury 
is lying under oath.
    Ms. Jackson Lee. So let me recount for you, and I am not 
going to challenge your interpretation. But in your July 2008 
testimony before the House Judiciary Committee, July 2009 
testimony before the U.S. Civil Rights Commission, March 2010 
testimony before the House Judiciary Committee, and your 
September 2011 before the Senate Judiciary Committee, you 
praised the work of the Department during your tenure and 
consistently cite the positive cases, actions, and the 
environment fostered at the Department during that time.
    At the time of your testimony in the aforementioned 
Committee and commissions, did you believe your perception and 
depiction of the Department's culture and work to be true at 
that time?
    Mr. von Spakovsky. I am sorry. I did not quite understand 
your question.
    Ms. Jackson Lee. In all of your testimonies that I gave--
'09, '08, 2010, and 2011, do you believe your perception and 
depiction of the Department's culture and work to be true at 
that time, what you said?
    Mr. von Spakovsky. I would stand behind any testimony----
    Ms. Jackson Lee. You are saying yes. Were you aware of any 
illegal hiring practices at the Department at that time? Yes or 
no?
    Mr. von Spakovsky. I was not aware.
    Ms. Jackson Lee. Yes or no, sir.
    Mr. von Spakovsky. There was absolutely no prosecution or--
--
    Ms. Jackson Lee. There was confusion----
    Mr. von Spakovsky. There was no prosecution of any case by 
the United States Attorney's Office. They did not believe that 
any law had been violated.
    Ms. Jackson Lee. Were you aware of any harassment or 
misconduct within the Division at that time?
    Mr. von Spakovsky. I am sorry, what?
    Ms. Jackson Lee. Were you aware of any harassment or 
misconduct within the Division at that time against career 
attorneys?
    Mr. von Spakovsky. There has been harassment from the first 
day I went to work there, including of me.
    Ms. Jackson Lee. Yes. And the OIG recently found otherwise 
and characterized division at the time that you were in that 
were in crisis during the time that you were there. I think it 
is somewhat questionable to come before this panel when charges 
have been made during your tenure, and when Mr. Perez has been 
proven innocent of the charges you all make. And if it had not 
been for his vigorous prosecution of the Voting Rights Act, the 
legal Voting Rights Act of 1965, Section 5, that none of us 
would have had a fair and honest election in 2012. Do you admit 
to that, Mr. von Spakovsky?
    Mr. von Spakovsky. I completely disagree. I disagree with 
that.
    Ms. Jackson Lee. Do you admit to that, sir?
    Mr. von Spakovsky. I disagree with your assessment of that 
and the way Mr. Perez has conducted himself. Perhaps you could 
explain----
    Ms. Jackson Lee. And there may be those who disagree with 
how you handled yourself.
    Mr. von Spakovsky. Perhaps you can explain, Ms. Lee, why it 
is that--I recall getting criticism from Members of this 
Committee during the Bush administration that we supposedly had 
not filed enough Section 2 lawsuits. If you look on page 44 of 
this, you will find that there were 18 lawsuits filed under 
Section 2 during the Bush administration. If you look on the 
same IG report, you will find that this Administration has one 
case, one case that the investigation was started during the 
Bush administration, and that Section 2 was filed by Mr. Adams. 
There has not been a single Section 2 lawsuit----
    Ms. Jackson Lee. It may be that the----
    Mr. Gowdy. The gentlelady's time has expired.
    Ms. Jackson Lee. It may be that the time was used up by 
voter oppression. And I thank the Chairman for his time.
    Mr. Gowdy. The gentlelady's time has expired.
    Ms. Jackson Lee. I yield back.
    Mr. Gowdy. The Chair will now recognize himself. I want to 
see if I can settle some facts. I had hoped to settle the facts 
with the witnesses, no offense intended to any of the four of 
you. But you were not the witnesses I wanted to settle these 
facts with. I wanted to ask the Department of Justice, but they 
are not here, so this is going to be a challenge, but I will 
see if I can work my way through it.
    South Carolina passed a voter ID law in 2011, May of 2011. 
And in 2011, one-third of South Carolina's congressional 
delegation was African-American. I may be mistaken. I suspect 
that South Carolina's percentage of African-American Members of 
Congress may have been the highest in the country in 2011. And 
as we now know, one of two African-American United States 
senators is from South Carolina in the person of my friend, Tim 
Scott.
    In addition, South Carolina's governor is of Indian 
descent. Further to the same, South Carolina's voter ID law was 
similar, if not less, restrictive than those Department of 
Justice had pre-cleared in New Hampshire, Virginia, and 
Georgia. And moreover, South Carolina's plan was similar, if 
not less, restrictive to plans approved outside of Department 
of Justice preclearance in States like Tennessee, Kansas, 
Indian, which incidentally was affirmed by the United States 
Supreme Court, Idaho, South Dakota, and Michigan.
    And just to be clear, South Carolina's voter ID law allowed 
for the casting of provisional ballots where the voter did not 
have one of the forms of accepted identification. Now, that is 
withstanding the fact that South Carolina's new voter ID law 
made it easier to obtain one of those forms of identification, 
allowed for the casting of provisional ballots.
    So, Professor, in your testimony, you had mentioned the 
significance of having career prosecutors to make these 
decisions. Did I understand your testimony correctly?
    Mr. Bagenstos. Yes, absolutely.
    Mr. Gowdy. Would you be interested to know whether or not 
the leadership of the Department of Justice ignored the opinion 
of these career prosecutors whose opinion you value so highly?
    Mr. Bagenstos. What I would want to know----
    Mr. Gowdy. I want to know whether or not you--I want you to 
answer my question before you answer the one you want to 
answer, okay? Answer my question, and it is this: would you be 
interested in knowing whether or not leadership in the 
Department of Justice ignored the advice of career Department 
of Justice attorneys?
    Mr. Bagenstos. Of course, but ignoring and disagreeing are 
not the same thing. I do not know what happened in that case.
    Mr. Gowdy. Exactly, and we do not either. You know why? 
Because they will not tell us. They have ignored Senator 
Graham's letter. So I am asking you, will you join Senator 
Graham and me in asking the Department of Justice whether or 
not they ignored advice from career attorneys to pre-clear 
South Carolina's plan? Will you join us?
    Mr. Bagenstos. No. I think the deliberative process within 
the Department is incredibly important. You cannot get candid--
--
    Mr. Gowdy. Is that a yes? Will you join us today?
    Mr. Bagenstos. No, congressman. You cannot get candid views 
from career staff if they know----
    Mr. Gowdy. Are you interested in whether or not those 
candid views were ignored?
    Mr. Bagenstos. You know, as a citizen I would be interested 
whether they were ignored. But ignore and----
    Mr. Gowdy. As a citizen? How about as a law professor?
    Mr. Bagenstos. Yeah.
    Mr. Gowdy. Would you be interested in whether or not sound 
legal advice was ignored for political expediency? Would you be 
interested in that?
    Mr. Bagenstos. Sure, but I think the proof in the pudding 
in this case is precisely in the opinion of the District Court, 
which I referred to----
    Mr. Gowdy. Oh, I have read the opinion. And by the way, who 
won?
    Mr. Bagenstos. And by the way it was a----
    Mr. Gowdy. Who won?
    Mr. Bagenstos [continuing]. Decision, by the way.
    Mr. Gowdy. South Carolina won.
    Mr. Bagenstos. By the way----
    Mr. Gowdy. And here is the difference. I am going to 
reclaim my time. Here is the difference. There was a 1.6 
percent difference in African-Americans who had accepted photo 
IDs and White South Carolinians, 1.6 percent difference. Twenty 
years ago when I was working on voting rights cases, that was 
considered the minimus. Now it costs South Carolina $3.5 
million to defend that 1.6 percent difference.
    But it also means this: that my fellow South Carolinians 
who are African-American are 1.6 percent less likely, less 
able, to enter a Federal courthouse because an ID is required 
there also. And they are 1.6 percent less likely to be able to 
board an aircraft because it also requires a photo ID. They are 
1.6 percent less likely to enter the front door of this 
building because it also requires a voter ID.
    So my time is up. I would simply say this to the men and 
women who have dedicated their careers at the Department of 
Justice to the apolitical, nonpartisan enforcement of the law, 
I am sorry that we are having to have this hearing. And I am 
also sorry to the State of South Carolina that it had to spend 
$3.5 million to have a district court, ultimately a three-judge 
panel, ultimately agree with us. And I am sorry for the 
Department of Justice that they put politics ahead of the law.
    And with that, I would recognize the gentlelady from 
California, Ms. Chu.
    Ms. Chu. I am one who feels very strongly about the Voting 
Rights Act, in particular, the aspects that protect language 
minority groups. And so, Mr. Bagenstos, we still continue to 
have examples of those who experience problems. For example, in 
2010, we learned that poll sites in Queens, New York did not 
have translators for Korean and Chinese voters, even though 
languages are indeed covered by the Voting Rights Act, Section 
203. And some sites were prohibiting limited English proficient 
voters from getting the assistance of a person of their choice 
in the voting booth as would be required by Section 208.
    As you know, the Voting Rights Act was specifically 
designed to protect citizens who are members of language 
minority groups from being excluded from the voting process and 
to ensure that they can receive the language assistance that 
they need to cast an effective vote.
    So let me ask: during and after your tenure, what progress 
and specific actions has the Civil Rights Division taken to 
enforce Section 203 and 208 of the Voting Rights Act, and to 
protect the voting rights of language minority groups more 
broadly?
    Mr. Bagenstos. Well, obviously the Division has brought a 
whole series of cases in the last 4 years to enforce Sections 
203 and 208 and the language minority provisions generally of 
the statute. It is a very important area.
    You know, after the 2010 census, there was a new set of 
jurisdictions that were certified for coverage under Section 
203 of the statute because that is now the statute works. It is 
based on census data. And actually, as detailed in the OIG 
report, it is clear that Tom Perez and the Department of 
Justice Civil Rights Division responded immediately to first 
try outreach with jurisdictions that were newly covered because 
litigation is not the first response. Better to try to get 
voluntary compliance with the law. But we also saw a 
substantial effort to enforce these laws, both with respect to 
language minority voters, with respect to Asian languages, but 
also the first new case on behalf of Native Americans since 
1998. So a very substantial push in this area.
    Now, I will say, I do want to be here and say nothing that 
happened in any previous Administration was positive by any 
means. I think the language minority provisions of the statute 
were enforced in the previous Administration, and this 
Administration has continued to enforce them. But I think there 
has been a substantial uptick in voting rights enforcement 
generally.
    Ms. Chu. Thank you. Let me ask, Mr. Bagenstos, about the 
Inspector General's report. From 2003 to 2007, the Office of 
the IG concluded that the polarization and suspicion in the 
Voting Section became particular acute as political appointees 
illegally recruited new attorneys into the Voting Section and 
other parts of the Division based on their conservative 
affiliations. Appointees regularly considered political and 
ideological affiliations in their personnel actions.
    What was the impact on the Department's expertise and 
capabilities and on the remaining career attorneys' morale when 
you came on in 2009?
    Mr. Bagenstos. It was dreadful. It was absolutely dreadful. 
I mean, I have often described my first 6 months on the job as 
Deputy Assistant Attorney General at the time as basically 
conducting grief counseling. I mean, it was a place where the 
career staff was completely demoralized. There had been very 
substantial turnover. Many of the people who had left, not 
surprisingly, are people who were outstanding attorneys, who 
had very good options, so they were the people who we would 
rely on to lead very significant litigations if we were to try 
to ramp up enforcement efforts. We had to figure out how to 
kind of rebuild what was there. It was a place that was in 
complete disarray and complete demoralization.
    Ms. Chu. And so, then Assistant AG Perez came in. And what 
was his attitude toward these improper hiring practices? How 
did he reform the hiring practices of that section and the 
Civil Rights Division as a whole? And in your personal view, 
what is the impact on the Division of these new policies? And 
what did the IG's Office conclude in their recent 
investigation?
    Mr. Bagenstos. So if you look at the IG report, it does 
detail what Tom Perez did pretty much right away as soon as he 
got in. I mean, he got in in October and had to look at various 
proposals to do this. But by the end of 2009, he instituted a 
process where career attorneys were in the driver's seat for 
hiring. All experienced attorney hiring would be done through 
hiring committee staff of career attorneys.
    The section chief, also a career employee, would make a 
recommendation to the Assistant Attorney General for hiring. If 
the Assistant Attorney General was to disagree with that 
recommendation, the Assistant Attorney General would have to do 
that in writing to promote transparency and to promote this 
culture of accountability. And the IG found that the nine 
attorneys hired in the Voting Section under that policy were 
outstanding in their qualifications and in their voting rights 
experience.
    Ms. Chu. Thank you. I yield back.
    Mr. Gowdy. I thank the gentlelady.
    The Chair would recognize the gentleman from Arizona, Mr. 
Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Mr. von Spakovsky, in your written statement, you described 
the Division's legal arguments in the 2012 Hosanna-Tabor 
Supreme Court case as representing a ``war on religious 
freedom, completely at odds with the Division's prior history 
of protecting religious freedom.'' You also state that Mr. 
Perez signed a brief to the United States Supreme Court that 
claimed ``such an extreme position, that all nine justices of 
the Supreme Court disagreed.'' I mean, nine justices, nine to 
zero. I am not sure in today's environment of judicial activism 
that we could get nine justices to all agree that two and two 
still equal four, so it is a pretty profound decision.
    Can you put some context on this and tell us why this 
Division, whose purpose it is to protect religious freedom, 
seemed in this case committed to turning it on its end and 
wiping away not only hundreds of years of history, but 
vaporizing the First Amendment in the process?
    Mr. von Spakovsky. Well, what was amazing about that case 
was that they basically tried to tell the Supreme Court that 
there should be no ministerial exemption. In other words, 
churches should not have the ability to impose their religious 
beliefs when they are hiring ministers, and lay ministers, and 
things like that.
    And that position was so at odds with the First Amendment. 
They were basically saying that churches should not have any 
more associational rights than a private club. And the Supreme 
Court said, you know, nine justices. And, in fact, Elena Kagan, 
the former Solicitor General for this Administration, joined 
with Justice Alito in a concurring opinion because the Court 
just could not believe, and it is very clear from the language, 
they could not believe that the Justice Department was pushing 
this kind of a view.
    Mr. Franks. Well, I mean, I do sometimes think we get so 
impractical in these areas, under that reasoning of that brief, 
it would occur to me that as a Baptist, I could hold myself 
electable to papacy because I felt better qualified somehow 
than the pope. And I just find it hysterical. I mean, next we 
will have, you know, some bill here that suggests that Russian 
citizens should be able to vote in American elections. So, I 
mean, I do not know where this thing goes.
    Mr. Mihet, in your written testimony, you provided an email 
dated November 5th of 2009. And incidentally, your story, sir, 
compels all of us greatly. But this was a Civil Rights Division 
attorney that wrote the email to an employee of the 
Presidential Women's Center, which, in part, states, ``On 
Saturday, we had planned to observe the protestors. Usually we 
just hang outside the clinic and observe as well as chat with 
the escorts. We had planned to leave on Saturday afternoon.''
    Now, can you elaborate again, put some context in this 
situation? Elaborate on the Civil Rights Division's presence in 
West Palm Beach. And do you think that the proponents of 
abortion who claimed that you got lucky in this case with the 
judge who is himself an ideologue, of course, and that the 
outcome would have been different in any other court? Can you 
put that in context and help us understand that?
    Mr. Mihet. Yes. The written documentation we obtained in 
discovery revealed a very sinister plan that began way before 
the lawsuit was actually filed against Susan in which the 
Department of Justice planned an elaborate trap against Susan 
and others of her pro-life friends. The email showed that they 
were on a first name basis with the clinic staff, Mona and 
Julie, and they were making all these plans. And multiple DoJ 
lawyers were flying from Washington, D.C. to Florida. Now, 
perhaps the weather differential in February might account for 
some of that eagerness to travel to Florida on taxpayer 
dollars. But that fact was easily lost upon Susan, who all of a 
sudden is being prosecuted by the most powerful government on 
earth.
    As to your second question, if you read Judge Ryskamp's 
opinion, which has been provided in the written submission, it 
is well reasoned and supported by the law. He exercised 
remarkable restraint in the face of what he clearly understood 
to be frivolous and outrageous conduct. Any other judge 
faithful to the Constitution would have reached the same 
result. How do we know that? The DoJ could have appealed that 
decision if they disagreed with it. In fact, Professor 
Bagenstos was an attorney at the DoJ at that time, perhaps the 
only attorney who managed not to have his name on the pleadings 
in this particular case. But he was in charge of the Appellate 
Division. If they thought the judge was off base, they could 
have appealed the decision. They chose not to. They quietly 
paid the significant attorney fee sanctions out of the public 
treasury, and then moved on to their next target.
    Mr. Franks. Thank you, folks. And thank you, Mr. Chairman.
    Mr. Gowdy. I thank the gentleman from Arizona.
    Mr. Conyers. Mr. Chairman?
    Mr. Gowdy. Before we go to my friend, the gentleman from 
Louisiana, I wanted to recognize the gentleman from Michigan.
    Mr. Conyers. Thank you, sir. I would like to ask unanimous 
consent to enter into the record the letter from Wade 
Henderson, who heads the Leadership Conference on Civil and 
Human Rights, as well as the letter from Joe Rich, the chief of 
the Voting Section from 1999 to 2005, a letter sent to the 
Honorable Dianne Feinstein and the Honorable Bob Bennett.
    Mr. Gowdy. Without objection, it will be made part of the 
record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
    Mr. Conyers. Thank you.
    Mr. Gowdy. I think the gentlelady from Texas had a quick 
document submission as well?
    Ms. Jackson Lee. Thank you, Mr. Chairman. I ask unanimous 
consent to put the submission of the testimony of the Lawyers 
Committee for Civil Rights Under Law, submitted to this 
Committee on April 16, 2013. I ask unanimous consent.
    And I ask unanimous consent to put in from the Lawyers 
Committee on Civil Rights the Map of Shame on voter suppression 
legislation by State.
    Mr. Gowdy. Well, is it entitled the ``Map of Shame,'' 
because I see my State highlighted on it. If that is the title 
of it, then that is fine. But if that is your editorializing 
what the document means, then we will just put the document in.
    Ms. Jackson Lee. Sir, I would never editorialize on a 
document, and it is not from me. It is from the Lawyers 
Committee on Civil Rights. I ask unanimous consent to put it in 
the record.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
    Mr. Gowdy. I will now recognize the gentleman from 
Louisiana, Mr. Richmond.
    Mr. Gohmert. Mr. Chairman, if the Civil Rights Division is 
editorializing by denoting that a State, which has clearly been 
found not to be discriminatory by the courts, is part of a Map 
of Shame, then I would submit--first I thought I would object, 
but then I would submit that is evidence of outright bigotry by 
this Justice Department. So I will not object.
    Mr. Gowdy. I thank the gentleman from Texas.
    And I will now recognize the gentleman from Louisiana and 
thank him for his patience.
    Mr. Richmond. Thank you, Mr. Chairman. [Laughter.]
    Mr. Gowdy. We are going to restart the clock for the 
gentleman from Louisiana so he does not lose any time.
    Mr. Richmond. Thank you, Mr. Chairman. And to the Ranking 
Member, who commented last week, and I think we both commented 
on the titles of the hearings in this Committee. I was excited 
when I saw the mild title of this one and thought we were 
actually having a hearing, and then I had a chance to read the 
report, which is the ``Department of Justice's Quid Pro Quo 
with St. Paul: How Assistant Attorney General Thomas Perez 
Manipulated Justice and Ignored the Rule of Law,'' which is 
right in line with other outrageous titles of hearings.
    It begs the question to me whether we are in search, 
whether we are trying to solve problems, or is this a race to 
be obstructionist in chief. And as I think about what we are 
trying to accomplish and if we are trying to accomplish 
anything, I can only think back to the last hearings. We had 
the REINS Act, which is Regulations From the Executive In Need 
of Review, where Congress wanted to approve every rule that the 
President wanted to promulgate.
    So last week, we wanted to be president. This week we want 
to be the U.S. Senate and actually have a hearing on Mr. Perez, 
who is not here, but we have heard his name a million times in 
this Committee. My understanding is this is a Committee in the 
House, and we do not have the right to examine Senate 
presidential appointees. But nevertheless, we are crossing not 
that jurisdictional lines, but, again, we want to be more than 
what we are.
    So let me just go ahead and ask a few questions, and I will 
start with the professor. Let me ask you, are you aware that 
the 2009 GAO study conducted by the Civil Rights Division under 
the Bush administration, to be specific, are you aware, for 
instance, that it indicated that they decreased the number of 
Section 5 investigations, even though the number of submissions 
from States did not decrease?
    Mr. Bagenstos. I certainly generally read that report 
before I took my job, you know, a few years ago.
    Mr. Richmond. Did you remember or can you recall the part 
of the report that found that in various cases, career staff 
attorneys would recommend going forward with an investigation. 
However, political appointees would choose that these matters, 
would close those matters without any explanation?
    Mr. Bagenstos. Yes, and that was a substantial problem. I 
mean, that was the lack of transparency and respect for the 
career staff precisely there.
    Mr. Richmond. Did you also know that they would stop 
communications with the States in those case, which ended the 
paper trail on their deliberation and further explanation of 
why they made their decision?
    Mr. Bagenstos. You are getting beyond my knowledge on that. 
But if the GAO said it, I trust that the GAO said it.
    Mr. Richmond. How far of a departure from the standard 
procedure do you think that eliminating the paper trail 
creates?
    Mr. Bagenstos. So, I mean, when we are talking about 
negotiations, I just want to understand what context we are 
talking about. We are talking about the Section 5 submission 
made to the Justice Department. And, you know, usually what 
happens in the context of a Section 5 submission made to the 
Justice Department, is the jurisdiction is required to submit 
all the information necessary to consider whether the voting 
change is discriminatory in purpose or effect.
    That information is supposed to go to the Justice 
Department both for its consideration and, as something we 
learned from the IG's report most recently, and so it can be 
released to interested parties, who have an interest in 
commenting on the submission. And so, if the information is not 
provided in a way that it can be released to interested parties 
in that context, then you have a serious problem with the 
Section 5 procedure, if that is what you are talking about.
    Mr. Richmond. Mr. Mihet, you spoke about the case you all 
were involved in, and you said that it was government actors, 
they lost evidence, they did not have the license plate. The 
police officer was the only witness. As a defense attorney, I 
want you to know that that is not that far from the norm of 
many cases that I seek. Is this the only case that you all have 
ever initiated that there was only a police witness and not 
much further evidence?
    Mr. Mihet. This was the only case where the one eyewitness 
put forth by the plaintiff, the DoJ in this case, came back and 
actually refuted the very claim that the DoJ was making. Here 
they said that Susan ``stopped and stood in front of a 
vehicle.'' This one and only eyewitness comes and testifies 
that, no, she immediately moved out of its way.
    Mr. Richmond. In all of your practice of law, is this the 
first time that you have seen that happen?
    Mr. Mihet. In all of my practice of law, I have never seen 
the kind of politically motivated conduct that I have seen in 
this case from any plaintiff, let alone a government.
    Mr. Richmond. We were just talking about a witness 
contradicting the report of themselves.
    Mr. Mihet. Well, what is interesting here is that both the 
police officer and the DoJ admitted on the record----
    Mr. Richmond. Is it the first time you have seen a witness 
contradict the prosecution in all of your practice of law? It 
is very simple.
    Mr. Mihet. It is my first time that I have seen it to this 
extent. No one disputed that this police officer and the DoJ 
had conferred before the lawsuit was filed. We have the 
documents going back and forth between them. There was no 
reason for them to misunderstand each other what I submit to 
you happened.
    Mr. Richmond. I will take you at your word. In your vast 
experience, this is the first time you have seen a witness 
contradict the prosecution.
    I yield back.
    Mr. Mihet. To this extent.
    Mr. Gowdy. I thank the gentleman from Louisiana.
    The Chair would now recognize the gentleman from Texas, 
Judge Poe.
    Mr. Poe. Thank you, Mr. Chairman. A lot has been said about 
Tom Perez and his reign in the Justice Department and what he 
has done or not done. It is my understanding he was invited to 
be here to talk about what he has done or not done, and he 
willfully chose not to be here. Is that correct, Mr. Chairman? 
Mr. Perez was invited, and he is not here?
    Mr. Gowdy. Judge Poe, my information is that he was 
invited. In the interest of full disclose to the court so I do 
not get myself in trouble, I think that there was some effort 
to arrange a date, but he is pretty occupied with the 
confirmation. And not only was he invited, I think the DoJ was 
given an opportunity to send another witness, and they did not 
avail themselves of that opportunity either.
    Mr. Poe. Thank you. When a person goes to vote, if someone 
is cheating and should not be voting, it disenfranchises the 
lawful voter. That is the way I see our system. Cheats hurt the 
right and the power of the vote of one person, one vote because 
it is diminished to some extent. Some States have passed voter 
ID laws. The Supreme Court has ruled on Indiana's voter ID law.
    I will ask the professor, do you agree with the Supreme 
Court's decision in the Indiana case where they uphold their 
voter ID laws? It is either a yes or it is a no.
    Mr. Bagenstos. Well, it is a complicated----
    Mr. Poe. It is a either a, yes, you agree or it is a no, 
and I do not want to hear your answer that wants to explain it 
because I am not asking you to explain the answer. Either you 
agree with the Supreme Court or you disagree. Which is it? Pick 
a horse and ride it.
    Mr. Bagenstos. I do not have a problem with them upholding 
the voter ID law against the claim that was asserted against 
them there. I do think there are certain statements in----
    Mr. Poe. So you agree with the Supreme Court decision in 
that Indiana case under the circumstances.
    Mr. Bagenstos. I agree with the bottom line. There are 
parts of the opinion----
    Mr. Poe. Thank you, Professor. It is not that complicated. 
It is not a trick question.
    Mr. Bagenstos. Well, I am a professor. It is always 
complicated.
    Mr. Poe. I want to call you that because they claim you are 
the professor, and I do not have a problem with that. So 
anyway, it is either yes or no. Pick a horse and ride it. It is 
probably a yes in your circumstances.
    Texas has a similar voter ID law that the Justice 
Department, after the Supreme Court decision, chose to make 
sure that law was not implemented for last year's election. 
Now, I personally think voter ID laws are probably a good idea. 
We will see what the Supreme Court does in this case.
    I want to ask the other members as well. Do you believe the 
Department of Justice in its litigation, and its philosophy, 
and its procedure applies our voter rights laws equally across 
the board to all citizens. Once again, it is either a yes or it 
is a no. I will start with Mr. Adams and go down the row.
    Mr. Adams. No.
    Mr. Poe. Professor?
    Mr. Bagenstos. Yes.
    Mr. Mihet. No.
    Mr. Poe. It is a no. Mr. von Spakovsky?
    Mr. von Spakovsky. No.
    Mr. Poe. All right. Do you believe that if the three of you 
who think it is now not applied equally, do you think that is a 
violation of the Equal Protection clause of the 14th Amendment, 
yes or no?
    Mr. Adams. No.
    Mr. Bagenstos. I thought you were skipping me.
    Mr. Poe. Yes. We are just getting the yesses. Yes, that 
answered yes.
    Mr. Mihet. Yes.
    Mr. von Spakovsky. I am frankly not sure on that one.
    Mr. Poe. All right. I will take that as an answer. Let me 
ask you this. Do you you believe that the Justice Department's 
Civil Rights Division has a bias against voter integrity groups 
that are of a conservative persuasion? In other words, if you 
are a conservative group and you are trying to promote 
integrity, hypothetically, you are looked at with intimidation 
as opposed to some other group? I mean, is that a fair 
statement or not? Mr. Adams, you may answer that question and 
explain it if you want to.
    Mr. Adams. We know the answer is yes based on the 
depositions that the Justice Department conducted in the State 
of Texas regarding the voter ID case where attorneys for the 
Department made inquiry of, for example, Patricia Harless, your 
State sponsor of the voter ID law there, about which 
conservative groups she was talking, whether or not she met 
with True the Vote, in full disclosure, one of my clients. And 
so there was an inquiry in discovery as to the extent of 
conservative groups' involvement in the passage of the voter ID 
law. That is a fact.
    Mr. Poe. Mr. von Spakovsky, you may answer that, too, if 
you want.
    Mr. von Spakovsky. Well, I agree with Mr. Adams.
    Mr. Poe. All right. I see that my time has expired. I will 
yield back to the Chair.
    Mr. Gowdy. I thank the gentleman from Texas. Thank you, 
Judge Poe.
    The Chair would now recognize the gentleman from Florida, 
Mr. Garcia.
    Mr. Garcia. Thank you, Mr. Chairman.
    I find myself at a great disadvantage with the other 
Members here today since I have known Tom Perez for many years, 
and I find him to be an excellent representative of a public 
servant, and someone who is committed to doing justice. 
Clearly, his tenure at the Department of Justice is something 
we should all be proud of.
    But nonetheless, this morning when I woke up, I realized 
that I had been promoted to the rank of United States senator 
since we are engaging in a confirmation process. And thereby, 
since the judge engaged in questioning the panel, let us 
question the panel.
    According to the Constitution, does the House of 
Representatives have a role to play in the confirmation of a 
nominee? We will start from left to right, and you can answer.
    Mr. von Spakovsky. I certainly think in its oversight 
role----
    Mr. Garcia. I would like a yes or a no answer like the 
judge has provided. According to the Constitution of the United 
States, does the House of Representatives have the same 
confirmation responsibilities as the United States Senate?
    Mr. von Spakovsky. No.
    Mr. Mihet. Not the same, but a----
    Mr. Garcia. I would like a yes or no answer just as was 
given to the judge.
    Mr. Mihet. Not the same, but a different function, yes.
    Mr. Garcia. Thank you. I will take as a no since the judge 
is allowed to interpret the question.
    Mr. Mihet. That is not what I testified.
    Mr. Bagenstos. The advice and consent power is to the 
Senate.
    Mr. Garcia. Thank you.
    Mr. Adams. No.
    Mr. Garcia. Great. Thank you, gentleman. That is all I 
have.
    Thank you, Mr. Chairman.
    Mr. Gowdy. Thank the gentleman from Florida.
    The Chair would now recognize the gentleman from Texas, 
Judge Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman, and thank you to the 
witnesses for being here.
    There has been discussion already obviously about Mr. 
Perez's prior testimony on different issues. And obviously the 
U.S. Commission on Civil Rights decided that Assistant Attorney 
General Thomas Perez testified that political appointees in the 
Department were not involved in the New Black Panther case. And 
they found, and I am quoting from the CCR, ``We found that 
Perez's testimony did not reflect the entire story regarding 
the involvement of political appointees. In particular, Perez's 
characterizations omitted that Assistant Attorney General 
Pirelli and Deputy Associate Attorney General Hirsch were 
involved in consultations about the decision as shown in 
testimony and contemporaneous emails.'' But basically they were 
giving him a pass because he at the time he testified did not 
know.
    Then in 2011, he testified before our Committee, and my 
friend, Mr. King, asked him specifically, but the decision to 
drop the case against other individuals you testified was made 
not by political, but by career employees. And I think the 
names were Mr. King and Mr. Rosenbaum. Does that still remain 
the case, or would you wish to clarify? He said that decision 
was made Mr. King and Steve Rosenbaum, two people who are 
career attorneys in the Division with combined experience of 60 
years. Anyway, he said, but the question was, it was not 
overruled by or influenced unduly by political appointees, and 
he answered no.
    Mr. Adams, from your own personal experience, after the CCR 
investigation had determined that he did not apparently know 
the truth at the time he misstated the truth, but by June of 
2011, from your own personal experience, do you know if he lied 
when he said political appointees did not unduly influence that 
decision?
    Mr. Adams. Well, he certainly did not tell the truth when 
he said he had never heard about this toxic culture against 
race neutral enforcement. I can personally testify about that 
second point.
    As to your specific question, by that time you would have 
thought he would have inquired about the Attorney General's 
involvement, which is detailed in the IG report, as well as Tom 
Pirelli, the Associate Attorney General, specifically denying 
them the opportunity to dismiss the entire case. So political 
appointees did overrule Rosenbaum and King, and they knew it. 
But Perez testified to the contrary.
    Mr. Gohmert. So is it a true statement by Mr. Perez, now up 
for consent before the Senate, when he said that the decision 
not to pursue the New Black Panther case was not overruled by 
or influenced unduly by political appointees?
    Mr. Adams. Completely inaccurate.
    Mr. Gohmert. All right, thank you. Now, there is a new 
thing that has arisen in conduct of people who appear to be 
violating State law and possibly Federal law with regard to 
something people in the media have called flash mobs. Mr. 
Adams, are you familiar with the consideration by the Federal 
Government to pursue such flash mobs and the civil rights that 
might be involved and being violated?
    Mr. Adams. Yes.
    Mr. Gohmert. Would you tell us about that?
    Mr. Adams. What this refers to is racially motivated mob 
violence in places like Chicago, also at the Wisconsin State 
fair a number of years ago. The issue is whether or not it 
violates 18.U.S. 242 and 18 U.S.C. 245, which is to deprive 
somebody of their civil rights.
    The Justice Department has long had a public streets view 
of exercising civil rights. If you are going about your 
business, you are exercising your civil rights. These groups 
have been attacking people with racial motivation in very 
violent fashion, and this Justice Department has done 
absolutely nothing about it.
    They have brought cases against White wrongdoers or 
Hispanic wrongdoers in places like New York, and they should 
because we have the right to walk the streets without being 
attacked. But those parents who went to the Wisconsin State 
fair or those parents who were attacked on their front lawn in 
Ohio by racially motivated mobs have had no justice from this 
Justice Department.
    Mr. Gohmert. Okay.
    Mr. Adams. It is time that that stopped.
    Mr. Gohmert. Thank you. Well, very quickly, let me ask 
about Section 5 of the Voting Rights Act. It seemed to me I 
tried to persuade my friend, Mr. Conyers and Mr. Sensenbrenner 
that to continue to cram down Section 5 requirements on States 
where there was less racial disparity than in the States where 
senators and congressmen were voting to force this down the 
throats of States who had brought themselves into compliance 
with the law was a violation of Equal Protection, and the 
continued forcing of this law and these requirements, the 
punitive requirements, down the throats of States where the 
racial disparity had been cured while States that were cramming 
down those throats punitively now, after 40 years, were having 
great racial disparity that they are refusing to address, was a 
violation of Equal Protection.
    And since there is nobody here to object, I would just ask 
if each of you would address in your opinion whether you 
believe Section 5, as it is today, violates the Constitution's 
right of Equal Protection to those States that were in the 
minority, and upon whom that was crammed down.
    Mr. Gowdy. I have given everybody one extra minute that has 
gone over, and Judge Gohmert just hit the 1 minute. If you can 
answer with one sentence, then we will allow that to happen.
    Mr. Adams. Section 4's triggers are probably outdated, and 
I suspect the Supreme Court will find that shortly.
    Mr. Bagenstos. I do not agree it is unconstitutional.
    Mr. Mihet. I would just defer to Mr. Adams on this.
    Mr. von Spakovsky. The extraordinary circumstances which 
justified Section 5 in 1965 have long disappeared. It is no 
longer constitutional.
    Mr. Gohmert. Thank you very much.
    Mr. Gowdy. Thank the gentleman from Texas.
    On behalf of Chairman Goodlatte and all the Members of the 
Judiciary Committee, I want to thank all of our witnesses for 
your patience and your comity toward one another with a ``T'' 
and with the full Committee.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    With that, thank you again on behalf of all of us. And this 
hearing is adjourned.
    [Whereupon, at 12:16 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
